<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2008 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                         [H.A.S.C. No. 110-53]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT 

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

              BUDGET REQUEST FROM THE U.S. CENTRAL COMMAND

                               __________

                              HEARING HELD

                             APRIL 18, 2007

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

37-325 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



                                     



















                   HOUSE COMMITTEE ON ARMED SERVICES

                       One Hundred Tenth Congress

                         IKE SKELTON, Missouri
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
MARTY MEEHAN, Massachusetts          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
VIC SNYDER, Arkansas                     California
ADAM SMITH, Washington               MAC THORNBERRY, Texas
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MIKE McINTYRE, North Carolina        ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        KEN CALVERT, California
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
RICK LARSEN, Washington              JEFF MILLER, Florida
JIM COOPER, Tennessee                JOE WILSON, South Carolina
JIM MARSHALL, Georgia                FRANK A. LoBIONDO, New Jersey
MADELEINE Z. BORDALLO, Guam          TOM COLE, Oklahoma
MARK UDALL, Colorado                 ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
BRAD ELLSWORTH, Indiana              JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  CANDICE S. MILLER, Michigan
PATRICK J. MURPHY, Pennsylvania      PHIL GINGREY, Georgia
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
CAROL SHEA-PORTER, New Hampshire     TRENT FRANKS, Arizona
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN GILLIBRAND, New York         K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                 Mike Casey, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                   Margee Meckstroth, Staff Assistant




























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, April 18, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request from the U.S. Central Command     1

Appendix:

Wednesday, April 18, 2007........................................    65
                              ----------                              

                       WEDNESDAY, APRIL 18, 2007
  FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                     FROM THE U.S. CENTRAL COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Duncan, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Fallon, Adm. William J., Commander, U.S. Central Command, U.S. 
  Navy...........................................................     4

                                APPENDIX

Prepared Statements:

    Fallon, Adm. William J.......................................    69

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Ms. Bordallo.................................................    96
    Ms. Giffords.................................................    97
    Mr. Loebsack.................................................    97
    Mr. Meehan...................................................    95
    Mr. Skelton..................................................    95
    Mr. Wilson...................................................    97
  FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                     FROM THE U.S. CENTRAL COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, April 18, 2007.
    The committee met, pursuant to call, at 9:01 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Admiral Fallon, we welcome you and again 
congratulate you on your new position. You have done an 
outstanding job in the Pacific, and now we give you another 
part of the world. We appreciate your appearing before us.
    We want to thank you for taking on your new challenge and 
also take a moment to thank those troops of ours who are under 
your command for their sacrifice and their hard work. We 
certainly owe them a great debt.
    And I am positive that most of the members present today 
will ask you about Afghanistan and Iraq, and I certainly have 
questions. But hopefully we will not lose sight of the 
operations in other parts of your area of responsibility (AOR).
    We would like to know what is going on in the Horn of 
Africa, Somalia, other ongoing regional engagements of the 
Central Command.
    Spend some time, if you don't mind, talking about Iran, its 
role in Iraq, the nuclear program, how we can best deal with 
that country in going forward.
    Please take a moment to talk about the Kurdistan Worker's 
Party (PKK), the attacks on our ally, Turkey, and the risk of 
serious conflict there.
    And members have had a long interest in the situation in 
Darfur and would appreciate an update on that horrible, 
horrible situation.
    As we go through the hearing, we would appreciate any 
thoughts you might have on the growth of extremism in the 
Middle East.
    I refer to Afghanistan as our forgotten war. We have a real 
chance of success there and we have a vital interest at stake. 
But we must not underestimate the challenges that are there, 
ranging from a possible spring offensive to record narcotics 
production.
    How can we best address the problems to maximize our 
chances of success? And I have as a major worry of mine, 
Admiral, North Atlantic Treaty Organization (NATO) living up to 
its commitments both in numbers and in what they are limited--
in at least some of the countries, limited in doing.
    I am so concerned that if NATO is seen as a failure there, 
what that would do to the NATO organization back in Europe.
    Turning to Iraq, recently Muqtada al Sadr's allies in the 
Iraqi cabinet resigned. Some may say that is a welcome 
development. But we would be interested in having your thoughts 
about that.
    American soldiers have spent four years heroically fighting 
in Iraq, who we are not able--in Iraq's civil war, and we 
should not be fighting it for them. The Iraqis must take steps 
to end their sectarian violence while we begin to reorient our 
efforts to training the Iraqi troops, fighting terrorism and 
protecting Americans.
    Iraq's government must make a serious effort to keep its 
commitments to meet the benchmarks their president mentioned 
and what our President mentioned in January.
    If they do not begin to do so seriously and address the de-
Baathification process, pass an oil law, reform their 
constitution, hold local and provincial elections, take other 
steps they promised to take, the sectarian violence will 
obviously continue.
    And we cannot simply keep the same number of troops we have 
in Iraq for much longer without breaking the Army, if it is not 
already broken. I am terribly concerned about that.
    That brings me to my last comment, Admiral. I mentioned 
several of the challenges and conflicts in your area of 
operations that we can discuss. And we could spend hours 
talking about the potential flash points in your old AOR in the 
Pacific Command.
    Many threats and possible sources of military conflict in 
the world, including the ones we can't see. I have been blessed 
to be in Congress 30 years. And during that 30 years, according 
to the Library of Congress, our country has used force 12 
times--those actions were predicted years in advance. We cannot 
continue to take strategic risks without paying for it.
    We must not allow our Army to be broken because of a 
policy, a misguided policy, fighting someone else's civil war. 
We have important interests in the Middle East and elsewhere, 
and we must protect them to continue to help our allies.
    Admiral, my first year in law school, my roommate, who 
later became a judge, a longtime judge, in Brookfield, 
Missouri, was called to the Pusan Perimeter after he had 
graduated from college and before he went to law school. And 
that was a very unhappy Task Force Smith situation.
    I don't want ever to see that again. And that is what 
worries me about the readiness of our military, not just today 
but for the future, and that is what is key to the whole 
problem of the days ahead.
    So we thank you for being with us.
    And I welcome the statement of our colleague, my friend, 
Mr. Hunter, ranking member.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman, and thank you for 
holding this hearing today.
    And, Admiral Fallon, to you and your team, thanks for being 
here and sharing some time with us.
    And, Mr. Chairman, I have reviewed those tough days when 
that--really, a third-rate military pushed us down the Korean 
Peninsula, and we had the difficult times in the Osan Pass and 
the Pusan Perimeter.
    Mr. Chairman, I am reminded of one other thing, though, and 
that is that over the last six years we have more than doubled 
the precision firepower in this country that we have ready to 
utilize at any place in the world.
    And so for those who think that we are not capable of 
reacting to a crisis somewhere else in the world, I would say 
don't bet your life on it, because you are going to lose.
    Admiral, thank you for being here, and as you know, we 
have--I know you have had a thorough discussion with lots of 
other folks here in Washington, D.C.
    I want to go directly to what I think is a key for a 
successful turnover of the security apparatus in Iraq, and that 
is a capable military force that is combat-tested and 
accountable to its civilian leadership.
    And toward these ends, you may be aware that I forwarded to 
President Bush a recommendation to ensure that all 129 Iraqi 
battalions that are presently trained and equipped experience 
what I would call combat tours in hotspot areas like Baghdad to 
grow and validate their capabilities.
    And this plan would involve implementing a rotation 
schedule that requires every Iraqi combat battalion to 
participate in a three-month combat rotation, to develop unit 
cohesion, leadership, confidence, capabilities in the chain of 
command.
    Of course, we understand there are a number of battalions 
that have been in contentious zones in Baghdad, and in Anbar 
province, and the Sunni Triangle and other places and have a 
fairly extensive combat record at this point, but there are a 
number of them that do not have them.
    And as we have discussed earlier, I think it is key to our 
success to rotate those guys in, get them their combat 
rotation, validate the leadership from top to bottom, and at 
that point they are capable of displacing American forces on 
the battlefield.
    Along with that, I think we need to identify enabling 
capabilities that they have to develop, and I am sure that we 
are working on that right now.
    And perhaps neighboring countries and coalition members 
could provide some support with respect to these enablers, 
especially in the medical area.
    So I am interested in your thoughts on this plan. It is not 
complex. It simply involves doing what any military must do to 
become proficient, and that is to operate, undertake military 
operations.
    And I know you are concerned about that, too, as is General 
Petraeus. So please comment on that, if you could, when you get 
to your comments.
    I would also like to know about your insights, especially 
in your former role, with respect to current and planned naval 
presence in this region and how that might act as a deterrent 
to Iranian aggression. So if you could speak to that, that 
would also be, I think, very valuable.
    And last, with respect to Afghanistan, I would appreciate 
your advice on how to create a sustainable alternative to opium 
as a cash crop.
    And I know that one of our plans is to substitute out opium 
and to substitute in orchard crops, and orchards that could 
sustain an economic income for the farmers who heretofore have 
been developing opium crops.
    And I would like to know how that plan is going, how that 
program is going. I know we have got a number of large 
nurseries that we have developed over in Afghanistan. We worked 
with the tribal leaders and with the populace to displace the 
opium crops with orchard operations.
    I would like to know how that is going, because in my 
estimation that would appear to be one of the valuable, 
sustainable ways of permanently displacing opium.
    Farmers are probably not going to cut down an orchard of 5- 
and 10- and 15-year-old trees to grow a one-time opium cash 
crop. So talk to us a little bit about that, if you could.
    So finally, Admiral, we members of Congress appreciate all 
that you and your fellow service members and your families 
sacrifice to protect American national security interests 
around the world. Please know that you have our enormous 
gratitude.
    And finally, Mr. Chairman, thank you for holding this very 
important hearing on the crucial issue of the next several 
years. But thank you, Mr. Chairman, and I look forward to the 
remarks of our guest.
    The Chairman. I thank the gentleman.
    Ladies and gentlemen, we have had a national tragedy at 
Virginia Tech just recently, and I would like to ask our 
committee just for a moment to pause for a moment and pay 
tribute to those victims. Thank you.
    Admiral Fallon, there have been a number of recent press 
reports--and in your comments today, I hope you would include 
something about the so-called war czar in your statement.
    The floor is yours.

 STATEMENT OF ADM. WILLIAM J. FALLON, COMMANDER, U.S. CENTRAL 
                       COMMAND, U.S. NAVY

    Admiral Fallon. Thanks, Mr. Chairman.
    Mr. Skelton, distinguished members, it is an honor to be 
back here again. It seems like just yesterday--it has actually 
been about a month.
    But in my new responsibility here at CENTCOM, the real 
honor is to be able to represent the many, many thousands of 
men and women in uniform and those civilians that support them 
that are serving so admirably throughout this region, which is 
challenging from one end to the other, for a number of reasons.
    There is lots to do. I have tried my best to, in my written 
testimony, give you what I believe is my most accurate 
assessment of how things really are, based on a couple of weeks 
of observation and questioning and visits.
    I took over about a month ago. I spent about three weeks 
out in the region visiting Iraq, Afghanistan and particularly 
the Gulf countries, and then Pakistan and Egypt and Jordan, to 
try to form my first impressions.
    There are many things--you have brought up a number of 
issues already this morning, with the chairman and Mr. Hunter.
    And so I think rather than give another dissertation, what 
I would like to do is just tell you that what I have done to 
date is, first off, to gather my staff and to gather a group of 
people from throughout the region who have various backgrounds 
and interests and locked ourselves up for about one and a half 
days.
    And we pondered what it is we have on our plates and what 
it is we think we ought to be doing and why, took a look at the 
mission that Central Command had been operating under, and we 
set about trying to make sure we were focused on those things 
that were most important.
    And from that, I have distilled five areas in which I want 
our people to work and have given them the guidance that if 
what they are doing doesn't fit into these areas, or if they 
think that we may have missed something, let me know, but if 
they are not in these areas then they probably ought not be 
doing it, and get yourselves redirected.
    The areas are somewhat pretty obvious--Iraq, Afghanistan. I 
want to work on degrading the violent extremist networks, which 
are running throughout this region and to other parts of the 
world, because I think that a couple of these countries, 
particularly Iraq and Afghanistan, are really focal points for 
the terrorist networks.
    The other area I would like to work on is with the 
neighborhood. I don't believe that there is really a solution 
to Iraq that is just internal to that country, that it is going 
to involve the neighboring nations.
    And I am working hard to try to understand their 
perspectives and then get them to contribute to the stability 
not only in that country but in the region, which I think is 
very important for this country and the world in the long term.
    And the last area would be to look at our posture, the way 
we have our forces arrayed right now, with an eye toward the 
future, and to see if, in fact, we are appropriately 
positioned.
    And an enduring issue is the readiness and training of our 
forces and how we are doing in that.
    So as we address these things, I will tell you that my 
initial impression of Iraq is we have got a lot of work to do. 
Whatever went on in the past is what it is. I am working from 
now forward.
    I believe that the things that I see on a daily basis give 
me some cause for optimism, but I will tell you that there is 
hardly a week goes by--certainly, almost a day that doesn't go 
by--without some major event that also causes us to lose 
ground.
    And so we are in the process of making a lot of change on 
the ground in Iraq. The surge of forces is one thing, but what 
they are doing is more important to me.
    We have about half of the additional troops that are headed 
to the region actually in place right now. The rest are in some 
degree of movement toward the theater.
    We have a lot of other changes that have taken place. We 
have got new leaders on the ground, both our ambassador and our 
leader in the military forces, General Petraeus.
    We have a number of new initiatives by the interagency that 
are beginning to come into play.
    And so as we pull these things together, I am acutely 
interested in figuring out how these things are going to work 
together and how we are going to be able to accurately measure 
and assess the progress that will be made or won't be made as 
we move forward.
    So my summary is that I am guardedly optimistic, and I am 
very, very interested in the detail of how we go forward.
    Afghanistan--different story altogether. Probably the 
biggest thing, the most encouraging thing, that I find across 
the board in that country is that the vast majority of the 
people there openly welcome us.
    They are happy to have us there. They are interested in a 
better life, and there is an awful lot to do, as you know, 
beginning with just the basic literacy in the country, which is 
about one-third of the population.
    And so there is an awful lot to do, but when you have the 
kind of open welcome that our folks have received, that is a 
pretty good place to start. So we can talk about that in a 
number of areas.
    The rest of the neighborhood is not exactly benign. There 
are challenges in virtually every country in this region--no 
surprise to you.
    You have mentioned some already--the Sudan. It just goes 
from one end to the other. But we are going to take those in 
turn.
    I think that what I will do is go back and touch on a 
couple of the things that the chairman and Mr. Hunter have 
already brought up and at least kind of get those in play, and 
then I will turn it over to you for your questions.
    First, regarding, Afghanistan and the NATO participation, 
my assessment here is that this is a very good idea. The theory 
is terrific. It remains to be seen just how much we are going 
to get out of this.
    The idea is that NATO and the vast capabilities of this 
alliance be asked to play a role in helping this country get 
back into a position of stability and security.
    If they didn't do it, then we would either--we would be 
faced, I think, with two choices, either it wouldn't get done, 
or we would end up trying to do it with more of our people.
    So there are thousands of NATO troops and other personnel 
on the ground working the issue. There are challenges.
    General McNeill, our commander of the International 
Security Assistance Force (ISAF) there, is a U.S. general, as 
you know. He is working for the NATO command. He is on record 
as asking the alliance in Brussels for additional assets.
    He needs them not only in terms of military forces and 
capabilities, such as rotary wing lift to move these forces in 
the field, but he also needs some help in the civilian world.
    There are a lot of slots that have been rogered up for, in 
military parlance. The nations have said they will provide. But 
as yet, there are lots of folks who have yet to appear on the 
ground. And this is really important if it is going to move 
forward.
    The question was asked about Muqtada al Sadr and the 
influence he may or may not have inside of Iraq. This is a guy 
that is pretty difficult to understand for us. He holds clearly 
a large amount of influence within segments of the Iraqi 
population.
    But of late, he has been absent; by all accounts, appears 
to be in Iran. And his followers, some of whom are particularly 
nasty--the militia--the acronym is the JAM, the Jaish al 
Mahdi--are certainly not people that are playing a constructive 
role in this country of Iraq.
    Sadr has issued a number of proclamations, none of which 
have been helpful to the coalition or, I believe, to the 
greater government of Iraq, a very self-centered and--but what 
I find interesting is that the impact of these statements 
appears to be maybe less than some might have feared or given 
him credit for.
    We have not, in the Baghdad security plan and its 
implementation in and around the capital city--we have not seen 
an overwhelming resistance, at least to date, from the JAM.
    They are certainly attacking our forces sporadically, but 
we have not seen what there appeared to be at one time a 
potential for, and that is a mass uprising against our forces.
    There are probably lots of reasons for this, and one of 
them is that a lot of people in this country have clearly 
gotten very tired of the sectarian violence, the murder, mayhem 
and chaos that are reigning every day.
    And so we have people in leadership positions, such as the 
mayor of Baghdad or of Sadr City within Baghdad, who have stood 
up and said it is time to figure out a better way than just 
fighting everybody. Of course, for his trouble, he was hit with 
an assassination attempt.
    But the kind of statements that the leaders must make in 
standing up to the terrorists, I think, is essential if we are 
going to make progress.
    A little bit about readiness, Mr. Chairman. I am really 
interested in readiness of our forces. I think you know that 
from a long history of working with me.
    I watch this every day. I will tell you honestly that the 
one area in which I am focused particularly is on the mid-level 
leadership, particularly of our ground forces, the Army and 
Marine Corps, the senior and mid-grade non-commissioned 
officers (NCOs) and our junior and mid-grade officers, because 
these are the people that keep going back for repetitive tours.
    We have lots of young folks--and aren't we blessed to have 
them?--volunteering to come into the services still in large 
numbers, but it is these key leaders that are ones that I am 
concerned about, because of the importance of their task and 
the things they do.
    We would not be able to do anything in this world without 
their particular expertise and dedication. And so I am acutely 
sensitive to this and will promise you I am going to watch it 
very carefully.
    The business of the Iraqi security forces and their coming 
along to accept responsibilities--as we would like to have them 
take over the lead not only in small areas but throughout this 
country, so that we can then withdraw the footprint that we 
have now and revert to a different role in this country--
clearly, one of our key objectives. It is a mixed bag to date.
    Chairman Hunter, I take your point. And one of the thing 
that in my discussions with General Petraeus recently--were to 
try to get a better look at the leadership of the Iraqi 
security forces, to see just how we are doing with those that 
are charged with leading these battalions and other units in 
the field.
    We are seeing some good examples of people doing the right 
thing and leading their troops, particularly in a couple of 
recent skirmishes, where the Iraqi security forces have given a 
good accounting of themselves. And this, of course, is what we 
would like to see replicated.
    I think we are doing a lot better with the army, and that 
is really the area that we want to focus in, than the police. 
That is a different story. I could probably answer a question 
or two on that.
    But we are focused on it, and the command, MNSTCI, the 
acronym, the multinational training organization, is one that I 
plan to visit when I leave here this afternoon and head over 
there. I am going to spend the full day with them.
    And I want to actually go around--I have asked to actually 
sit and meet and watch what goes on with the Iraqi forces so I 
can get my own sense of how we are doing.
    The last thing, it is the opium business in Afghanistan. 
This is opium harvest season, I am told, and that is probably 
one of the reasons why the Taliban have been relatively quiet 
in the last couple of weeks, because they tell me they are busy 
in the fields harvesting their crops.
    It is painful to watch this, because the impact of this 
criminal activity runs throughout the country, and I suspect it 
is one of the reasons life is challenging in Afghanistan, 
because it appears that at every level, from the growers, the 
farmers, on up through higher levels, there is some degree of 
gain from this illicit trade.
    However well and desirous it would be to me, and I am sure 
to you, to get rid of this as the main line of the economy in 
this country, I think we have got to come up with a realistic 
alternative.
    Mr. Hunter, I have heard of the orchard proposal, and I 
have actually seen a couple of examples of this in the valleys 
there. What I don't know is how viable this is as a realistic 
major muscle mover in the economy.
    I suspect that one of the challenges--in fact, I have been 
told that one of the biggest challenges--is actually getting 
this stuff to market.
    But to that end, one of the highest priorities in 
development in the country is the business of extending the 
highway network, and particularly this ring road, which 
everybody that I have talked to from President Karzai on down 
tells me is absolutely essential to the economic future of this 
country.
    So I don't have an answer, to tell you quite frankly, on 
what is really the best solution, if there is one. But I am 
very interested in it, as well as you.
    I think I will end it there. And, Mr. Chairman, back to 
you, sir, for questions from the committee. Thanks again for 
the opportunity to be here.
    [The prepared statement of Admiral Fallon can be found in 
the Appendix on page 69.]
    The Chairman. Admiral, one question with two parts. We, of 
course, would like to know, as well as the American people 
would like to know, number one, what is the end state or 
victory, in your opinion, in Iraq? Second, what is the end 
state or victory in Afghanistan?
    And that will be my only question. I will reserve the 
remainder for later.
    Admiral.
    Admiral Fallon. Mr. Chairman, I would say that to use the 
term end state would be a challenge, because we are in a 
world--reality in this world of constant change. And so 
conditions that we might point to for tomorrow will probably--
not probably; without a doubt will be influenced by events that 
we have yet to see.
    But there is little doubt in my mind that what we are 
trying to do in the biggest picture with both countries is to 
end up with states that are functioning for the benefit of 
their people, that actually give people a say in the 
government, that provides services that we would like to see 
for them.
    We would like to see, because they are in different stages 
of development and the security situation is decidedly 
different in both, in Iraq we need an essential degree of 
security and stability so that the fledgling institutions in 
this country can actually be able to benefit the citizens.
    I would like to see a substantially reduced level of 
bloodshed and violence in this country. I will tell you that my 
observation for the month that I have been in this job is, as I 
look at and ask for data--and I have got reams of it; trying to 
sift through and make sense out of it is a challenge.
    But I am seeing some significant signs of goodness in the 
data in terms of a reduction in bloodletting, reduction in 
murders, reduction of incidents of many kinds.
    However, I will tell you quite honestly that it bothers me, 
and I hold my breath regularly in anticipation, regrettably, of 
the suicide bombers, these people that are just seemingly 
totally bent on creating as much chaos and bloodshed as 
possible, particularly against the civilian communities. And I 
think we are challenged to work against this problem.
    If I could digress for one minute, of all the things that 
we have on the plate in Iraq, the one that I think is first and 
foremost as a target for us to try to get a grip on and to 
neutralize is the group that is very clearly al Qaeda 
motivated, that is linked to Sunni extremists in this country 
that are perpetrating these big suicide bombings.
    They have two objectives. One is to try to continually 
damage the coalition, to weaken our will and to kill and maim 
our coalition forces.
    And the second objective is to kill and maim as many people 
in the population, with the idea that they would get 
retribution from the Shi'a. It is clearly sectarian-aimed, and 
it is very tragic.
    If we can get a handle on this--and I think that 
ultimately, in addition to the kinetic things that our forces 
are doing, the best, most likely way that this is going to be 
reduced is by getting the Sunni population in this country to 
believe that they have a future as a part of Iraq and to tell 
us at every opportunity or tell the Iraqi security forces what 
is going on, so that we can really work against this threat, 
because of all the challenges, all the things that happen that 
are not good in this country, this is the one that I think is 
most destabilizing today. So we will work on that.
    But back to the--what would we like to see in Iraq, I would 
like to see a place in which people have confidence that their 
future is going to be better than what they have seen in the 
past and what they have today.
    And how we are going to measure that is one of the key 
things that I am working on right now, to get a baseline so 
that--everybody in town here is talking about benchmarks.
    They are interesting, but what I want to know is what 
beneath the surface of these topics is appropriate for us to 
see whether we are actually making progress, and I will work on 
that.
    In Afghanistan, there are institutions--there are people of 
significant competence that are in positions of leadership in 
this country. They have challenges.
    The literacy rate is pretty abysmal. It is very difficult 
to get around. They are challenged with tribal affinities that 
go back for centuries that have caused instability.
    There are lots of signs of hope. There are many people in 
the world that are working this, in addition to the ISAF and 
other security forces.
    There are thousands of people volunteering, government-
supported non-governmental organizations (NGOs) and so forth 
that are working many of the issues in Afghanistan.
    And the goal here is to, again, have a country that is 
stable, that gets along with its neighbors and is doing things 
to try and help their population.
    Thank you, sir.
    The Chairman. Admiral, thank you very much.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Just very briefly, Admiral, give us your take on the 
leadership at the very top in the Iraqi forces, in the Iraqi 
army particularly.
    Admiral Fallon. I will start at the top with the minister 
of defense. He impressed me on a couple of counts. One, that he 
was into the detail of what was going on within the ministry of 
defense.
    And I have met a number of leaders in this country and 
others that kind of give me a hand wave, but I get no sense of 
actually having a clue what the detail is.
    This guy seemed to know a lot about that, maybe too much, 
but I am happy that he understands a lot about what is going 
on.
    The other thing is my initial reaction is that he is a 
pretty shrewd judge of assessing the leadership capabilities of 
his people, and he proceeded to, in our first encounter as we 
got into talking about certain personalities--gave me a picture 
of them that actually pretty well matched up with the picture I 
had from meeting some of these same people, and that is 
encouraging.
    General Abboud, who is the leader of the Iraqi side of the 
Baghdad security plan, first meeting, impressed me as a guy 
that had a grip on things. He was unlikely from our first 
expectations. We didn't really know him, I think.
    I say `we' probably a little too easily, but the reports I 
got from Baghdad were that our people were not very familiar 
with this gentleman, and because they weren't, were a little 
uneasy.
    What he seems to be demonstrating is the kind of leadership 
example that we would like to see in all people in those 
positions. He gets out and about. He is not hesitant to give 
guidance and direction to his subordinates, and I think that is 
a good thing.
    But one of the challenges that is pretty obvious with these 
people is that very few of them have ever had the opportunity 
to have responsibilities of the scope which they are trying to 
deal with right now.
    They have been in the military, maybe, been in the security 
forces for some time, but they have never been asked to do 
things at this level. So this is a challenge.
    And the rest of the--from those that I have met in 
leadership positions with these divisions--it is a mixed bag. A 
good sign is that as we go down the road, those that appear to 
be weaker or less capable are being pulled aside and new people 
putting in.
    So I think this is a process that is moving in the right 
direction, probably a long way to go, because we are trying to 
expand this force pretty dramatically. It is a work in 
progress, but it is one which General Petraeus and his team are 
really focused on as well.
    The Chairman. I thank the gentleman from California.
    Mr. Ortiz, please.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Admiral, good to see you again, sir. Congratulations on 
your new position.
    Admiral Fallon. Thank you, sir.
    Mr. Ortiz. I was just wondering if you could comment on the 
recent Iranian--this issue of the 15 British sailors and 
marines. What were the motivations behind the Iranians 
apprehending them?
    And will it require coalition forces to change how they 
operate off the coast of Iraq?
    Some commentators have been talking about a possible 
agreement between the British and the Iranians, and that this 
was one of the reasons why they were turned loose.
    Are you aware of any such agreement between the Iranians 
and the British, and if you are aware if the United States 
participated in such an agreement?
    Admiral Fallon. Thanks. Good to see you again, sir, and 
pleasure to be here.
    Regarding that issue in the Gulf, from the U.S. standpoint, 
one of the first things I did was to call Admiral Cosgriff, our 
component commander and Fifth Fleet naval commander in the 
region, and ask him what procedures we had in place and what he 
thought of those.
    So we had a conversation, and he forwarded me some 
information, and we both agreed that we liked some aspects of 
it and we wanted some things changed, and if you want I would 
be happy to tell you a little bit about the detail maybe in a 
closed session, because it is operational in nature.
    But suffice it to say that we had a good look at it, and I 
feel very confident that Admiral Cosgriff has got a grip on 
that.
    There was no deal made between us and the British and the 
Iranians regarding this.
    What motivated this thing? Interesting--and speculative on 
my part. The folks that carried this out, to the best of our 
knowledge, were the Islamic Revolutionary Guard Corps (IRGC). 
That is kind of a force within a force.
    Our commanders over there for a number of years now have 
recognized that when they deal with Iranian military folks in 
this region there are a couple of different flavors, and that, 
for example, the Iranian navy, the mainline navy, is different 
and acts differently than these characters, who are more along 
the less disciplined and more likely to carry out actions that 
are less predictable than mainline forces.
    So we are very wary of them, and the guidance that we have 
given to our commanders is quite specific. I don't want to get 
into the detail of that in an open session. But I think we have 
got the appropriate things in place to deal with it.
    It is a place in which this area in which the Iranians 
claim that these folks were ``over the line.'' As you know, in 
most cases in the naval world, there are no--in fact, in no 
cases are there lines on the ocean.
    But the area in which these people were operating, the 
British, is an area near the oil terminals in the northern Gulf 
that are the primary export means for the Iraqi economy.
    And we are up there helping the Iraqis to protect those 
terminals, and our coalition forces have been doing a very 
credible job. As you know, a couple of years ago, there was an 
attempt to blow those things up.
    The waters are confined. They are shallow. And by my 
observation, the Iranians have been acting periodically in a 
manner that is not particularly helpful, that is occasionally 
threatening to the coalition forces, and that is not what I 
would consider responsible.
    There is certainly dispute about exactly where the 
territorial lines go out into these waters. But one would think 
that responsible nations would direct that their forces act in 
a manner that is fitting to the situation.
    We have not seen that kind of behavior, I will tell you, 
from the IRGC in this area. And so it is something that we 
ought to address in the bigger picture.
    But there has been no deal cut regarding ourselves, the 
Iranians, or the British regarding this.
    Mr. Ortiz. My time is up, but if there is a second round--
thank you so much. Good to see you again, Admiral.
    Admiral Fallon. Thank you, sir.
    The Chairman. Mr. Saxton from New Jersey.
    Mr. Saxton. Thank you, Mr. Chairman.
    Admiral, good to have you here again.
    Admiral, in your opening statement, you mentioned that 
every--or I don't know whether you said every or almost every--
country in the AOR has issues that you are concerned about.
    I suspect that you can say that those issues are related, 
as you travel around the AOR. Can you just explain to us how 
they are related and if they have an impact on the situation in 
Iraq?
    Admiral Fallon. Congressman, many of the countries have 
religious and ethnic challenges, sectarian challenges.
    Iran is a predominantly Shi'a nation, although it is 
composed of several different ethnic groups.
    Iraq has a majority Shi'a population, and it is very clear 
that Iran is trying to play a major role inside Iraq shaping 
the future of that emerging government.
    The rest of the nations in the Gulf area are predominantly 
Sunni, and this has been a friction point for some time.
    And so there is concern not only about Iranian power or the 
perception of growth of power and influence against those 
nations, but also the perception in the Gulf countries that 
there is a potential alliance between Iraq and Iran that would 
be somehow more threatening to them.
    There are lots of development issues. There are any number 
of challenges both internal and external. The issues on the 
Levant with Israel and the Palestinians overshadow, and I hear 
about it from every leader in every country as a primary cause 
of instability amongst the masses of people within countries.
    There are certainly many challenges in the Horn of Africa. 
These are Islamic countries. The predominant folks in each of 
them are of the Islamic religion. And there are longstanding 
issues of development and challenge and governance within 
virtually every one of these states.
    There are some moderate states which have established 
institutions--Egypt, a great example--which I think could be 
helpful in this area. Jordan plays a very constructive role, as 
an example. But it is very difficult to get people to work 
together.
    I found in my initial meetings with most of the leaders in 
this region that they are keen to work bilaterally with us and 
with other individuals, but the idea that they would cooperate 
together for any common purpose is one that is a really tough 
sell.
    Mr. Saxton. Yesterday, in talking with an individual who 
has just returned from the region, I learned that there are--
that most of the bad actors, suicide bombers and others, in 
Iraq are now from outside of the country and that they are 
inspired by some of the people that you are mentioning.
    Would you just elaborate on that a little bit, if that is 
true?
    Admiral Fallon. We have had the idea for some time that a 
significant number of these suicide bombers are from outside 
the country. I think it is really a mixed bag, and I am 
interested and keen to try to find out everything we can. It is 
pretty difficult to sift through the remains and to figure out 
who is who.
    I think it is really a mixture of people. I believe that 
one of the most destabilizing influences are these outsiders 
that have been coming into Iraq to inspire people to commit 
these kinds of acts.
    How many of them are actually the bombers themselves I 
think remains to be seen.
    Mr. Saxton. Just to use the last few moments of my time, is 
it also true, as I was told yesterday, that the general Sunni 
population in Iraq has had it up to here with the violence and 
that they are now beginning to take steps to deal with al Qaeda 
on their own?
    Admiral Fallon. I think this is one of the most significant 
positive steps that is occurring within Iraq. I looked at some 
data yesterday that showed that for the eighth straight week 
the level of violence in Anbar province has been coming down.
    And this is a really good sign, and the reason for this is 
that, in fact, people are fed up. And the leaders, the tribal 
leaders, there have made alliances among themselves and have 
come to the coalition and the government and said that they 
would prefer to work with us rather than al Qaeda. And we are 
trying to help them every way we can.
    This is a really good trend, particularly within Anbar, and 
that is where most of the Sunni population is located.
    Mr. Saxton. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Admiral, again, welcome. And I wish you well in your new 
job. So much depends on it.
    I was wondering, Secretary Gates announced the extension 
from 12 months to 15 months tour of duty for the Army. Were you 
consulted in that process? And if you were, can you explain to 
the committee what that process was?
    Admiral Fallon. Sure. We have had a lot of discussions 
since the first day I got here, because it was apparent--
General Petraeus told me straightaway that his look at the 
situation in Iraq was such that a troop surge was under way to 
move us up to 20 combat brigades on the ground.
    But as he looked at the rotation cycle that was already in 
place, the amount of time in which these 20 brigades would 
actually be together on the ground was, in fact, only a couple 
of weeks, and so he asked me to consider supporting his request 
for extending a couple of these brigades, and he identified 
them.
    And when I was over there several weeks ago, we sat down, 
and I actually talked to one of the brigade commanders 
personally to kind of get a sense of what was going on.
    The particular people that he was most interested in 
extending for a period of time, for a couple of months, were 
really key, and I understood that.
    As we got into this, though, as you start to peel the 
onion, you begin to find out that there is just a continuing 
series there. There was going to be a continuing series of 
issues regarding who ought to get extended, for what period of 
time and why.
    And no sooner had we looked and I had said, `Okay, I think 
it makes sense to extend these two brigades for a couple of 
months to give you the staying power, so that we can actually 
see what effect we are getting from the surge'--and then it 
turned out there was a division headquarters that was actually 
very well-known to me, because it was the 25th Infantry 
Division from Hawaii--and so I was very sensitive to what they 
were doing and why they were important.
    And so, okay, then as you look down the road, it also 
became apparent that there were other--there were going to be 
other decisions that would be coming up one after the other, so 
this month we could make this decision, and if it were 
supported, okay, and next month there are going to be more 
units that we would have to look at.
    And so I could see that we would spend the next several 
months doing one series of debates after another.
    Meanwhile, back in Washington, the Army had taken a look at 
this and said, ``Yes, we can support this, if that is what you 
need to do.''
    But there is another issue, and that is the business of the 
Army at large, and how many units are being told what, and what 
kind of--you know, the differences between this unit--why are 
these people maybe going to do 12, these 14, these 13, these 
15, and so forth.
    So they looked at this and tried to come up with a 
comprehensive way that this could be addressed in a smart 
manner, that would give us--reduce the flail on planning and 
try to give the best predictable future for the most number of 
people, particularly families, for their planning.
    And so the decision was made to at least put in place and 
to announce to people that their tours could be up to 15 months 
long. This is not a commitment to do this for the Army at large 
and for all these brigades.
    But it puts us in position so that if you do the planning, 
you can lay these out and actually have forces available on 
paper and in reality. They can start making their plans to be 
able to do this.
    And then some time later on this year we can then have a 
decision as to whether we are actually going to do this for 
significant numbers of the forces or it is not going to be 
done.
    So really, you could have done it either way. We could have 
piecemealed it and had each individual request come up, with a 
constant churn on that, or try and take it and address the 
thing in large measure for the entire Army, at least put us in 
position, so that if we decide to back off, much better to have 
people say hey, you don't have to spend this whole amount of 
time, than to keep surprising people with very short notice.
    The biggest issue I got from the people on the ground, the 
leaders out there, was, ``Please don't drag this out. Make a 
decision. We think that we can make a difference if we stay 
here, and we recognize the value that we are providing to the 
forces, so just tell us now.''
    Mr. Reyes. So right now the tour is 12 months with a 
potential to go to----
    Admiral Fallon. No. Every one of these brigades has been 
told that they can expect to have a 15-month tour. Whether they 
actually do that remains to be seen.
    Mr. Reyes. Any chance that an extension would come along 
and then make it 18 months?
    Admiral Fallon. I don't think so, because there is so many 
factors here. The flip side of this that is advantageous to the 
individuals and their families is this puts in place a way to 
actually get them to stay back in their home bases for a year 
rather than some which are actually getting under a year now.
    Mr. Reyes. All right.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    John McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Admiral, welcome back. I, too, wish you all the best in, 
shall we say, an interesting region--very big and interesting 
region of the world.
    I had the opportunity to go to Iraq and Afghanistan and 
Pakistan a few months ago. We spent a lot of time with 
Presidents Karzai and Musharraf.
    It was clear to our people that there was seriously an 
agreement it is just not working, and we talked to President 
Musharraf about that. He seemed to express a willingness to 
rework it but not to do something different.
    Have you been able to get a read on what the status of that 
is? It seems to me that is so critical if we are really going 
to interdict and get at the root cause of what is happening in 
Afghanistan.
    Admiral Fallon. This is a very complex issue, as I am 
finding just about everything in this region.
    I spoke with President Karzai and with President Musharraf 
separately and had, I thought, real good conversations for me--
first time to actually meet each individual, but to get an 
understanding of where their heads were in this issue.
    They have differing opinions, to put it mildly. But my 
sense in Pakistan in particular, because I know there has been 
a lot of talk, particularly here in Washington, that there is 
not enough being done, more needs to be done--President 
Musharraf was pretty eloquent in taking me through a long list 
of things that people had suggested, requested, or demanded, in 
some cases, that the Paks do, and met with different reactions 
from him.
    But he was pretty kind in walking me through a number of 
things. There have been significant changes in recent days, 
within the last month or so. I have looked at it from two 
sides--one, at the big picture, to see what the level of 
commitment seems to be from him and from his government, and I 
see a couple of significant things.
    He has moved or had his army move two brigades of forces 
from the Indian frontier to the west of the country.
    Given the mindset that I think I understand within that 
country, this is pretty significant. Because of all the things 
that they are concerned about, they still have this fixation on 
the Indian frontier and the challenges between these 
countries--interesting to me, because having just come from the 
Pacific I had an insight into the Indian side as well.
    As an aside, there is some good news here. For the better 
part of two years now, there has been a steady de-tensioning on 
that border between India and Pakistan, and I think that can be 
only good news for them and for the rest of the world.
    But back to Pakistan. He has made these moves. He has put 
these forces in positions just outside these tribal areas. He 
told me that there is a long history in these areas.
    These are not parts of his country in which he has 
traditionally put his military, other than the border forces, 
the tribals, that actually come from these areas and work in 
there to provide security.
    He is working it. He has given his commanders authority to 
work with our commanders down to battalion level. I think this 
is very significant.
    So at the other end of the spectrum, I went to our forces 
in Afghanistan and I asked what has been going on, what is the 
level of cooperation, have you seen a difference. Hopefully it 
is improved. The answer is yes and yes.
    And I think this is really good. And the more that our 
people on the border and the Afghan security forces can work 
directly with counterparts, I think the more ground we are 
going to gain in this challenge with the terrorists and their 
supporters that are going back and forth.
    One thing that I--the President asked me to keep in mind. 
This is the Pashtun tribal area. It encompasses large swaths of 
land on both sides of the borders. These people don't recognize 
a border. This is their tribal territory, and they feel they 
have got a right to go back and forth and do what they do.
    In the last several weeks, in South Waziristan, you may 
have noticed that there has been significant conflict.
    This conflict was instigated by the tribal leaders out 
there in Pakistan who have had enough, not unlike the tribal 
leaders in Anbar in Iraq, with outsiders, troublemakers, al 
Qaeda-inspired and other ``we are here to help'' ne'er-do-wells 
that have been destabilizing not only the border region in 
Afghanistan but inside of Pakistan.
    It appears that the tribal leaders have been successful in 
ejecting a significant number of these insurgents from outside. 
I see all of these things as very positive steps.
    And President Musharraf assured me that he would continue 
to work it to the best of his ability, and if I had a specific 
issue that I wanted to take up in here, he would be happy to 
entertain it.
    So I think these are good signs.
    Mr. McHugh. Thank you, Admiral.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Admiral, I wanted to ask you about the Iraq supplemental. 
One of my frustrations with the last few weeks is we have had 
this great debate going on in this country, and the President 
has been involved, and the vice president, and the speaker.
    And it seems to me that the debate that has been going on 
has not really been about the language that is in the 
supplemental but on interpretations or overstatements of 
language, of what people are saying the language is.
    I wanted to ask, were you consulted by the White House--
have you had input into what the language of the House version 
and the Senate version might mean for your troops in Iraq?
    Admiral Fallon. Sir, I will be quite honest, I have not 
focused on this. I have been using every available minute and 
hour to try to have an understanding of what is really going on 
inside the country so that I can try to----
    Dr. Snyder. No, I understand that, but it also means to me 
that nobody from the White House called you up and said, 
``Admiral, we really need you to look on pages whatever and see 
what the language is going to mean for----''
    Admiral Fallon. No, sir.
    Dr. Snyder. Well, that is the impression I have gotten from 
the debate.
    Let me ask you some specific questions, because I think, 
you know, you read these press summaries--I have read them 
again today. They talk about, you know, the language that calls 
for a troop withdrawal by some time in 2008.
    And there is no language--that not the result of the 
language of the House bill. I am going to speak specifically 
about the House bill.
    And let me tell you what I mean, because there is very 
specific language in here that has a number of exceptions. And 
the result is we end up with a bill that is really calling for 
a change in focus.
    And so the specifics--my understanding is that currently in 
Iraq we have about 5,000 U.S. troops involved in training. Is 
that about the right number, to your knowledge?
    Admiral Fallon. I have seen a number like that that may be 
dedicated to the command that does training.
    Dr. Snyder. Is it fair to say that----
    Admiral Fallon. But we have people all over--we have people 
embedded in every single one of these units that are doing 
mentoring and training----
    Dr. Snyder. Which I think is actually--my understanding is 
the goal is to get more than what is currently there, too, is 
that accurate?
    Admiral Fallon. I am sorry, sir, what was that?
    Dr. Snyder. It is my understanding that the goal is to have 
more trainers as they get up trained and we get the numbers and 
what--that that number will go up as time goes by. Is that 
accurate?
    Admiral Fallon. General Petraeus has expressed to me a 
desire to significantly boost the number of people within the 
Afghan units themselves--I am sorry, Iraq.
    Dr. Snyder. Yes, that is right.
    Admiral Fallon. By the way, it also applies to Afghanistan, 
but Iraq. Now, here is the challenge.
    Dr. Snyder. Well, I have got very limited time. I need to 
stick with this language.
    Admiral Fallon. The answer is yes.
    Dr. Snyder. You are helping me with your analysis here. 
Well, according to the language of the House bill, there is no 
limit in the numbers and no limit on duration of the number of 
U.S. troops that can be involved in training.
    So when everyone says there is going to be a complete 
withdrawal of troops by some time in 2008, that is an 
inaccurate statement of the House bill.
    My second point--the language also says that troops can be 
in Iraq for as long as the secretary of defense wants and in 
whatever number to protect American troops. Well, specifically, 
these trainers would be the ones we would be most concerned 
about.
    So if we have between 5,000 and 10,000 trainers, as you 
said, embedded all over the country in all these different 
units--I mean, I have talked to military people that would say 
it would take tens of thousands of U.S. troops in Iraq to 
protect those American troops with the kind of robust over-the-
hill forces to get them out if we need to, to support them, 
close air support.
    Would you agree with that? I mean, it is hard for me to 
say--pin you down on a number, but tens of thousands would not 
be unreasonable at all to protect 5,000 to 10,000 trainers 
sprinkled all over the country in Iraqi units, would it?
    Admiral Fallon. Mr. Snyder, I have not looked at what kind 
of a laydown we might have in a different scenario in Iraq, but 
it is very clear to me that what we would like to have in the 
big picture is Iraqi security forces----
    Dr. Snyder. I understand.
    Admiral Fallon [continuing]. Would take most 
responsibility, and we have a different supporting role for 
them--how many troops that is going to be.
    Dr. Snyder. Rapidly running out of time. There also is 
language in the bill that says that U.S. forces can be there in 
whatever number for as long as they need to be, without any 
regard to this 2008 date, to protect American civilians, 
American citizens.
    Is it fair to say that we have tens of thousands of U.S. 
citizens in a civilian capacity in Iraq, both private, NGO, and 
in other government agencies other than military?
    Admiral Fallon. I couldn't give you an accurate figure on 
that, sir. I know that we have a lot of people, and I have seen 
a lot of Americans. I have no idea how many are actually there.
    Dr. Snyder. And I would make the same statement by this 
language. There are also going to be tens of--there could be 
unlimited troops, U.S. troops, without regard to time or 
number, to protect U.S. civilians.
    And then finally, and very clearly, you can have as many 
troops for as long and in what number as the secretary of 
defense deems necessary to go after al Qaeda and other 
international troops--other international forces.
    Well, my time is up, but the bottom line is the language 
that is being used by the Administration--perhaps reflective of 
the fact they did not ask you for what that language actually 
would mean--is not what is in this bill.
    And in fact, the President can well decide that there would 
need to be 100,000, or 150,000 or 170,000 troops to do the kind 
of things that you are talking about other than having U.S.-led 
combat missions.
    Thank you.
    The Chairman. Would the admiral take for the record a 
question? If you can get back to us in several days--the number 
of contractors that are in Iraq and a basic description of 
their various missions.
    I know you couldn't give us that today, but we would 
certainly appreciate that.
    Admiral Fallon. Yes, sir.
    [The information referred to can be found in the Appendix 
beginning on page 95.]
    The Chairman. Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    And, Admiral Fallon, thank you for being with us today and 
thank you for the incredible service that the men and women 
serving under you are providing and the successes.
    In my district in North Carolina, Fort Bragg, and 82nd 
Airborne, and Joint Special Operations Command (JSOC), United 
States Special Operations Command (USSOC) are very prominent in 
this fight, and we are extremely proud of them, fully deployed.
    The 1st Brigade Combat Team is scheduled to deploy this 
summer, which will really make us fully deployed.
    From information that I am getting from the field, the 
reinforcement of the troops is having a very positive effect on 
the war against terrorists, particularly in Iraq.
    It is hard to find this information. You can dig through 
the press, and folks in the field are telling me about various 
incidents that are happening.
    I would like for you--I want to complete my question--to 
sort of help me tie that together from your perspective.
    And then another little component is--there was a bombing 
in the Green Zone of the Iraqi parliament which shocked 
everybody, but having been there numerous times, as most folks 
here have been, it is possible to see how that could happen.
    It would seem to me that, bad as that is, that has 
strengthened the resolve of the Iraqi parliament, so if you 
could include that in your answer.
    And just last, in the way of a comment, I would think--and 
you don't have to respond to this, but the only thing worse 
than Congress telling you how many troops and when and how to 
get them there and back would be to tell you how many trainers 
and how many civilians and all that stuff.
    So I hope we don't go down that road. But if you would talk 
to me about the progress that is being made, that is obviously 
happening.
    Admiral Fallon. Yes, sir. Our special forces personnel have 
been doing a phenomenal job. I was very, very impressed by the 
briefings and by my observation of their activities both in 
Iraq and Afghanistan. Americans nationwide would be exceedingly 
proud.
    We are not going to talk publicly about a lot of what they 
do. I would be happy to give you more detail maybe in a closed 
session.
    But they are working very hard and they are making a 
difference. They are dedicated.
    I was impressed with not only the work of the forces 
themselves but the team that they have gathered to do their 
support work, the analytic work, the incredibly quick turn on 
information from the littlest snippet of intelligence.
    To expand and build on this, to be able to take the 
appropriate actions, I think, are remarkable.
    They are doing things on a daily basis that are exceedingly 
well-executed, well-thought-out, and we are getting great 
advantage from their work. And I will end it at that.
    A comment about your second point on the bombing incident 
in the COR, the council of representatives. I was there a 
couple of weeks ago, visited that building, went actually to 
meet with Speaker Mashhadani.
    And I will be honest with you. My impression as I walked 
into that building and I went right through that room where the 
bombing took place was a little bit of concern, because it was 
filled with people, of different folks coming and going, did 
not appear to be particularly orderly, and my instant reaction 
was I don't know who is in charge of security here, but it 
looks pretty tenuous.
    In response to my queries, I was told that one of the 
biggest challenges was that every person in the COR saw him or 
herself as a very important person (VIP), and as such they 
merited certain particular privileges, among them being a 
coterie of bodyguards that were unique to that individual.
    And the second was unfettered access in and out of that 
building without any searches, because they were above this. 
And so you can see the recipe for a problem, and it certainly 
was exploited the other day.
    In the aftermath of that, there have been some pretty smart 
decisions made to get a grip on security. I will tell you that 
General Petraeus and our team over there have had their fingers 
all over this to try to steer it in the right direction, to try 
to make it better.
    I take note of your comment that in the aftermath of that, 
this particular institution, which has been sometimes less than 
enthusiastic in their approach to diligently carrying out their 
duties as this body may be, actually decided to have an 
extraordinary session and get together to demonstrate some 
solidarity.
    That is a good sign.
    Mr. Hayes. Thank you, Mr. Chairman.
    I might note for the record that some of the special forces 
soldiers we were talking with at Bragg on Friday were talking 
about how the ICTF, the Iraqi counterterrorism force, their 
special forces, are taking to and responding to the training.
    Our soldiers were very proud of the improvements that those 
folks were making. Thank you.
    The Chairman. I thank the gentleman.
    The gentleman from Indiana, Mr. Ellsworth.
    Mr. Ellsworth. Thank you, Mr. Chairman.
    Thank you, Admiral. Before I get to a question, I would be 
remiss if I didn't tell you that three members in the room here 
today just got back on Thursday from the region.
    And with everything we learned, probably one of the most 
important things was just how impressed I was, and I think we 
were, of all our troops, from all the different agencies and 
branches with their dedication, and obvious intelligence and 
internal fortitude.
    I couldn't be more impressed with our troops over there.
    Getting to my questions, General Pace was here a couple 
months ago and, in regard to the surge, talked about that they 
were developing a matrix to determine if the surge was going to 
be effective, and some benchmarks there.
    And I just want to know--I really don't need to know the 
benchmarks, just if that matrix has been developed and if at 
some point in the future we might see that.
    And then I would like you to comment, if you could--one of 
the--I guess the jaw droppers for me was in both countries. We 
are talking about the lack of real law, the lack of anyone in 
the country understanding the rule of law as we would know it.
    And one of the generals referred to it as kind of like a 
milking stool. We are training the police--and I know you said 
earlier you may not be able to comment as much on the police--
but we were training the police--but the total lack of the 
other legs of the stool, in the judiciary, the attorneys, both 
prosecutorial and defense, and then the penal system.
    And I guess my question is what is our plan and a time 
frame for adding those two of the legs of the stool, so that it 
will sit on the ground, if that is going to be the answer that 
they take over and they do the job, when we can pull the 
military back, and put the police in?
    You know, I think you know what I am saying.
    Admiral Fallon. Yes, sir. Regarding General Pace's 
testimony on the matrix, I am not particularly familiar with 
that. I can tell you, for my part, I am working to try to put 
some meat on the bones of these things by which we can actually 
measure success.
    The first order of business for me is to get a sense of the 
foundation, where we are right now, in areas that I think are 
key--security, levels of violence, governance, and moving 
forward and so forth, and not just in Baghdad, in provinces and 
so forth.
    So one of the things I have my staff doing, in fact, this 
week while I am up here, is brainstorming how we would measure 
any number of topics here. And there are dozens of them, but to 
try to figure out which are most important and how we can 
actually track them and get good data.
    As far as rule of law, clearly a big deal. There is no 
doubt in my mind that we can be as successful as the day is 
long in trying to establish security zones, if you would, to 
try to carve out areas in which the violence has been reduced, 
but the long-term stability of this country is only going to 
occur when and if the other instruments of governance are going 
to fall into place.
    There is no tradition here, near as I can tell--very little 
tradition in this country of the kind of rule of law that we 
would certainly enjoy or like to see. So we have got to help 
them rebuild this, or build it from scratch in some cases.
    General Petraeus has put out and made one of his key 
requests to try to get help in this area. He has started what I 
think is a pretty interesting innovation.
    And they have actually set up a court system inside the 
Green Zone to provide a little bit of protection, because one 
of the key factors we have discovered is any time a person 
stands up and agrees to be a judge, or somebody in the rule of 
law system, they become immediate targets for al Qaeda, because 
they just--this is anathema to them. But they are starting.
    For my part, I will tell you that I think this is a great 
idea, and I would welcome support from wherever we can get it 
in this regard. I will tell you that as I was leaving Hawaii, 
just as an anecdote, a gentleman came up to me and volunteered 
himself to actually go out and serve.
    He is a lawyer, actually had experience in the Army as an 
Army Judge Advocate General (JAG), thought that his experience 
of 20 years in the service and then quite a number in the 
private sector would be helpful. And I said, ``You are on.'' 
And I think we may be successful in actually getting him in 
place.
    It is very, very important and necessary for a couple of 
reasons. One, to give people a sense of a future, that they 
have some recourse to just the rule of gun, or the thug on the 
corner, or the neighborhood bully, or the militia as the way to 
settle disputes, which inevitably, as you know, will arise.
    In the old days, they had a tribal system that took care of 
these things in a manner that may not be very democratic or 
representative.
    But we clearly recognize the need for this and are trying 
to help them to install a system that can be helpful to the 
country.
    The Chairman. Ms. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    First of all, Admiral, it is good to see you again and 
congratulations on your new command. We look forward to working 
with you.
    My first question is can you comment to us on the recent 
Iranian claims that they have started industrial-level 
development of nuclear fuel? And tell us if you think those 
claims are credible.
    Admiral Fallon. It appears, based on the level of effort 
and the analysis by the intelligence community, that they are 
hard into working to develop a nuclear capability in this 
country.
    I don't view this as particularly beneficial to anything 
good in the region or the world. This has, I think, been widely 
recognized by most folks in the world as a negative 
development.
    The U.N. has certainly taken note of it, and the Security 
Council, as you know, has acted accordingly.
    This is destabilizing, and it is recognized by the 
neighbors. Their biggest apprehension is what Iranian 
intentions might be in this area.
    They claim to be working for their own internal 
development, and they claim to have no negative desires or 
aspirations toward the neighborhood, but their actions belie 
their words.
    Not only are they pursuing this program and the degree to 
which they are boasting about it--I am not sure how much of 
that is, in fact, accurate--but they are tripping over 
themselves, it seems to me, to make breast-beating 
proclamations that are unhelpful.
    And there is no doubt that they are taking actions 
particularly destabilizing in both Iraq and Afghanistan. So the 
behavior is certainly not very good.
    This recent caper with the British, the kind of cowboy-type 
activity that is certainly not representative of what they 
claim to be trying to do--and that has become a major player in 
the region.
    The only thing major they are doing is acting in a manner 
that is not particularly exemplary by any of our standards.
    Mrs. Drake. Can you also comment for us--I mean, we all 
understand the threat of improvised explosive devices (IEDs). 
We have seen the loss of life and the serious injury.
    But there has been some criticism recently toward the Joint 
Improvised Explosive Devices Defeat Organization and concern 
that in spite of all the money that has been spent that we 
don't have the results that we need, and they haven't produced 
anything.
    So do you feel you are getting the support you need from 
them? Is there anything that we can do? And certainly, anything 
we could do that would allow us to overcome these IEDs should 
be a first course of action.
    Admiral Fallon. Ma'am, there is little doubt that this 
organization--and General Meigs, who has been the head of it, 
has briefed me several times on their work--that they are 
dedicated and they are trying to help us in this problem.
    The challenge is that a lot of their work tells us in 
detail what is going on, gives us better insight into what is 
happening, but frankly this is a very challenging situation in 
which we are chasing a rabbit that runs pretty quickly.
    The enemy is very astute at watching what we do and 
adapting his tactics and procedures to take advantage of any 
weakness they see.
    What has been very disturbing of late is that they are--
some of these terrorist networks inside Iraq are clearly 
getting help from Iran. And the particular type of technology 
that the Iranians have introduced is deadly toward our people.
    And so we are working hard to try to understand and defeat 
these weapons, but frankly it is the number one challenge that 
our troops face on a tactical level. It is very difficult to 
get ahead of this thing.
    As we see an evolution of their tactics, we can typically 
come up with a counter to that. But trying to anticipate what 
they are going to do next and how these things might be used 
against us is a real challenge.
    As you know, there are countless actions that have been 
taken to try to increase the security for our own forces and to 
give them a way to deal with these things.
    Mrs. Drake. And also during these two weeks at home I heard 
a lot of concern from our ship repair yards and contractors in 
the region about what will happen if we don't pass the 
supplemental.
    So I don't know if you are going to really have time to 
answer, but what your thoughts were if--either in a delay or 
not being able to get the supplemental passed--how that will 
impact the military.
    Admiral Fallon. What I have been told from our people here 
in the Pentagon is for the commands in Central Command, in 
Iraq, Afghanistan, and those supporting, they are cash-flowing 
resources from the services, so there is money coming out of 
service entities, Army and Navy and other services, that would 
be intended for other things that are now being diverted to 
take care of our daily needs.
    Mrs. Drake. Thank you, Admiral.
    The Chairman. I thank the gentlelady.
    Mr. Johnson from Georgia.
    Mr. Johnson. Thank you, Mr. Chairman.
    I just had the opportunity, Admiral Fallon, to visit that 
region last week, Afghanistan and Iraq. And I was very 
impressed with what we have going on in Afghanistan.
    The situation there is a little different than it is in 
Iraq, and I think you would agree to that. Security and 
governance are in place in Afghanistan. The vast majority of 
the people over there favor representative government and 
prosperity, not Taliban brutality, according to your statement.
    And they are standing up and fighting for their country's 
future. And you could also see that they were very eager, well-
led, and courageous fighters. We visited with a number of them 
on the trip, and I concur in your assessment.
    We also met with some Iraqi security forces. They seemed to 
be less eager, less well-led, less brave, and certainly not 
equipped with weapons, vehicles to get them around. In some 
cases, they were without uniforms, kind of a ragtag bunch.
    And I don't know how many of them there are, how many have 
been through training, how many are currently in training. But 
it just appeared that the Iraqi security forces are not in a 
position to stand up and take on the security of their country.
    We also visited with the Iraqi navy down in the Gulf where 
the incident occurred with the British forces, and my 
assessment--I won't give you my assessment, but bottom line, I 
didn't have a lot of confidence in the forces down there, the 
Iraqi navy in particular.
    And have you had the opportunity to review the polling data 
from Iraq in terms of what the Iraqi people think of our 
presence in their country down there?
    It appears that 60 percent of them think that it is--or 
they approve of using violence against American forces.
    And so, differently from Afghanistan, where the people 
support the United States and NATO presence there, the people 
in Iraq don't support our presence there.
    And there is no sectarian violence going on in Afghanistan 
like it is in Iraq, which puts our troops in the middle of a 
civil war, something that we cannot win militarily for either 
side.
    And so my impressions were that we are doing a great job in 
Afghanistan, but it is time for us to depart from street combat 
responsibilities in Iraq.
    And I would like to get your take on what I have said.
    Admiral Fallon. Well, I would agree with some things and 
not agree with others. First of all, there is a very clear 
difference, as I indicated in my oral and written testimony, in 
the situations in both countries.
    The size and the quality of the Afghan security forces--
much smaller than the numbers in Iraq, with a tradition of 
experience in the field. These are tough--physically--people. A 
lot of them have had experience in security business before.
    And they are well-led. Their defense minister--their 
general, Bismullah Khan, I think, is a sharp guy who really 
understands how to get things done, and so little doubt in my 
mind that they are moving out smartly in providing a foundation 
for security in that country.
    Iraq has got a lot of challenges. We are trying to take an 
institution that was dismantled, partly by us, and build it 
from scratch into something of some several hundred thousand 
folks which we would like to see charged with taking care of 
security in this big country that is in constant turmoil day by 
day.
    This would be challenging for anybody in any circumstances. 
There is no doubt in my mind that there are units within the 
Iraqi security forces that have a long way to go. And it is our 
intention to try to do our best to train these people.
    In fact, one of my priorities on this trip, leaving this 
afternoon, is to spend time with those forces so I can get my 
own personal assessment of how well we are doing.
    I have seen some terrific performance by some of these 
forces. There is little doubt we have a lot of work to do with 
others. We are going to work on it.
    Mr. Johnson. Thank you, sir.
    The Chairman. I thank the gentleman.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you, Admiral, for your service. I believe what 
you are doing is crucial to protecting American families, by 
making sure that terrorist camps are not recreated in the 
region to attack the United States again.
    I was really grateful--I had a son serve for a year in 
Iraq. It was a very meaningful experience for him.
    I appreciate in your statement--you indicate the surge of 
additional military forces into Baghdad has disrupted extremist 
elements, at least temporarily reduced ethnic violence, and has 
been welcomed by a majority of the city's people.
    This is a very hopeful assessment. A concern I have--have 
the pledged Iraqi forces been placed in the city? What is the 
status of Iraqi forces?
    Admiral Fallon. There are substantial numbers of Iraqi 
forces that are actually in the city and functioning.
    And the reports I received, which I am eager to understand, 
show me that in recent days we have had a couple of exemplary 
demonstrations of their performance, in which they have 
actually done very well under combat conditions, and in one 
case stayed in the fight all day, in the lead.
    The overwhelming number of forces that were engaged were 
Iraqi forces with our people backing them up, and they actually 
performed very well. So we would like to see this continue.
    One of the questions that General Petraeus and I both have 
is what the Iraqi plan is to continue to rotate forces in.
    As they have had units there now for a couple of months, 
they have indicated they would like to change these out. And we 
are all ears to find out just how they plan to do this and 
whether we are going to be able to maintain the force levels 
that we would like to see in there.
    So I would like to get back to you on that after I see it 
myself.
    [The information referred to can be found in the Appendix 
beginning on page 97.]
    Mr. Wilson. Additionally, I am very grateful. This weekend, 
I will be joining the sendoff ceremony of the 218th Mechanized 
Infantry Brigade of the South Carolina Army National Guard.
    I served with this brigade for 25 years. And I am so proud 
of them. They are committed. They are trained professionals. 
They and the state of South Carolina are very proud that they 
will be proceeding to Kabul to train the Afghan police.
    And I want you to know that under your command that you 
have just got top-quality people. And the people of our region 
are just so supportive and understand how important this is for 
America's security.
    I was interested--in your statement, you indicated that the 
spring offensive may be overstated. I am glad to hear that.
    I really would like your assessment again on how it may be 
overstated, or what you can tell us has been done by way of 
being prepared fully to address the incursion.
    Admiral Fallon. Well, there has been an awful lot of hype 
about the so-called spring offensive.
    Frankly, what I am hearing from intelligence reports right 
now is that most of the Taliban that we think we can identify 
are actually out there whacking down poppies to fatten their 
coffers.
    But there have been very aggressive actions taken in 
anticipation of any potential offensive by ISAF, both NATO and 
U.S. forces as a part of that, to go out and rout out the 
Taliban, particularly in the south, in and around Helmand 
province, where there has been report resurgence of Taliban 
activity.
    We have had forces down there working for several weeks now 
that are pushing Taliban and their supporters out of key areas 
and have taken quite a bit of--reclaimed quite a bit of 
territory.
    This has not been done--it was cleared out once several 
years ago. But frankly, my assessment is that we allowed this 
thing. We congratulated ourselves a little too early and 
allowed them to come back into these areas.
    We have now cleaned them out again. The aim is to try and 
keep them out of there and get the Afghan security forces to 
take over responsibility for policing that up and keeping it 
squared away.
    Mr. Wilson. And I, too, as Congressman Johnson, have 
visited Afghanistan. The level of support, although I have been 
to Iraq six times and been impressed by the dedication of their 
military, too--is there sufficient equipment for modernization 
for the Afghan army and police?
    Admiral Fallon. The commander charged with that 
responsibility, U.S. commander, that is working it has been 
extremely diligent, I think, in trying to get the right things 
to the right people at the right time.
    And I had a meeting with the defense minister and the chief 
of defense, General Khan, when I was there a couple of weeks 
ago, and they indicated that--of course, they have a long list 
of things they would like to have, but that they were receiving 
generally the equipment they wanted. And I think this is 
working pretty well.
    Mr. Wilson. Again, thank you for your service.
    Admiral Fallon. Thank you.
    Mr. Wilson. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Loebsack, please.
    Mr. Loebsack. Thank you, Mr. Chair.
    Thank you, Admiral, for appearing before us today. I, too, 
was in Iraq recently. It was in February. And I have to say 
that when I--and I am a new member of Congress, just some 100 
days, or whatever it has been.
    When the bombing occurred at the parliament, I was shocked, 
to say the least, because I thought to myself what if there had 
been a bombing at the U.S. Capital--the functional equivalent, 
basically.
    Now, having been there, I realize that obviously the 
security situation isn't the same as it is here.
    Although having been there and having been to the Green 
Zone and the U.S. embassy and what have you, I actually thought 
that--and having been trailed by contractors the whole time, 
even when I had to head to the restroom. I was very happy that 
they were with me.
    But I thought to myself there actually seems to be somewhat 
more security there than there is here. That is not to say 
anything about our Capital or the security here. It is 
wonderful.
    But the first thing that came to my mind was not only the 
contractors we have there, but the subcontractors--the 
Peruvians, for example. Can you tell us how many Peruvians are 
employed by us there?
    Admiral Fallon. No, I can't, sir, but I will tell you that 
I have got it. I had a hearing yesterday with the House 
Appropriations Committee-Defense (HACD), had a lot of the same 
questions. I am only 30 days into my job, so----
    [The information referred to can be found in the Appendix 
beginning on page 97.]
    Mr. Loebsack. Okay. Why do we have Peruvians in the first 
place?
    Admiral Fallon. Well, it isn't so much why do we have them. 
It is many of these security personnel--and by the way, my 
impression was there were so many to be more dysfunctional than 
functional in the Green Zone, is my--probably the gang there 
don't want to hear this.
    How effective all these folks are remains to be seen. What 
I believe is going on--and I know for a fact that many of the 
organizations within the Iraqi government have contracted for 
people through various ministries.
    What I have discovered is that in addition to the Iraqi 
security forces that we generally talk about, the army and the 
police, every single ministry within that country has its own 
security force. And it keeps on flowing.
    One of the challenges, I think--and there is a culture 
here. I think that one or the reasons or the methods by which 
Saddam kept the place under control was he had half the people 
in the country employed in some security capacity, and there is 
a tradition of that.
    I want to look at----
    Mr. Loebsack. Could I ask you about who is under our 
control? I mean, technically, we have occupied the country, so 
technically, you know, this is all supposedly under our control 
at the moment until we remove our troops.
    But at the same time, my understanding was that the 
contract--Blackwater, or whoever it is--that we employ, that 
the U.S. Government pays, has also subcontracted with Peruvians 
and maybe others, for all I know. Is that correct?
    Admiral Fallon. I don't know all the details, but what I am 
told is that there are contractors and subcontractors and 
subcontractors.
    Mr. Loebsack. And I guess I just want to--I mean, I have a 
real concern about this----
    Admiral Fallon. Me, too.
    Mr. Loebsack [continuing]. Why we don't have American 
citizens protecting facilities that are under our command. This 
strikes me as a little bit strange, to say the least.
    And I do want to make a comment, I guess, about sort of the 
privatization, if you will, and this has nothing to do with you 
as such, but, you know, the sort of privatization craze that I 
think we have seen in the last six years as far as our 
government is concerned.
    And then it becomes manifest as far as the number of 
contractors. We have the whole issue of contractors in Iraq and 
to whom they are responsible, and then when they go out and 
subcontract.
    Ultimately our government is responsible, is it not, for 
those operations?
    Admiral Fallon. I think that this is, at the highest level, 
pretty well-intended in that if you can save having to put 
American uniformed personnel out here to do non-combat missions 
that this is general goodness, that there are many support 
functions which could easily be done by civilians that could 
free up service personnel to actually do things that would be 
more useful for the big picture.
    The degree to which this has been rippled down is something 
I am just going to have to get a grip on. I see a lot of 
goodness in places, for example--many of the contracted 
personnel are, in fact, Iraqi civilians.
    And this is an opportunity to actually give them some 
meaningful work, give them a future and actually, as they get 
to see what our people are trying to do for them, maybe carry 
this message back to the community. I see a tremendous amount 
of the potential for good there.
    I also know that many people are contracted from other 
countries, and people are standing in line in these other 
countries to get these kinds of jobs for exactly the same 
reason, because they don't have work at home.
    And you know, how much of this plays into effective 
security is the question, and I got it. I will work on it.
    Mr. Loebsack. Thank you, Admiral. And I do thank you for 
your service. You don't have an easy job.
    Admiral Fallon. Thank you, sir.
    Mr. Loebsack. Thank you.
    The Chairman. I thank the gentleman.
    Dr. Gingrey.
    Dr. Gingrey. Thank you, Mr. Chairman.
    Admiral Fallon, welcome to the committee and thank you for 
your tremendous service and what you did in leading the Pacific 
Command, and of course, now in this new area of responsibility, 
Central Command, the first naval officer to have that 
responsibility.
    It is just amazing as I read about all of the areas that 
are under your command, certainly now the most volatile region 
in the world, without question, probably five of the top six 
most volatile areas. So I know you have got your work cut out 
for you.
    I came in a little late, and I hope this question hasn't 
already been addressed.
    But in regard to how your command works with NATO and 
General McNeill in Afghanistan, I know we have--I think it is 
about, what, 10,000 of our troops still in Operation Enduring 
Freedom and another 15,000 that are part of the NATO force 
structure, ISAF.
    And it is a little hard to understand exactly how General 
McNeill works with you and what specifically we can do.
    I know we recently put another 3,200 from the 10th Mountain 
Division preparing for the so-called spring offensive. I know 
you addressed that when Mr. Wilson was asking his questions.
    But could you give us a feel of how--what is the working 
relationship between your command and NATO?
    Admiral Fallon. I wouldn't feel alone in sensing this is 
complex, because it is complex for me, too. First, the easiest 
one to answer is that General McNeill works for the NATO chain 
of command, and he reports back through the NATO chain in 
Brunssum and then back into Belgium.
    But in Afghanistan, there are several different missions, 
and only one of these missions, the counterinsurgency mission, 
has been officially signed up for by NATO. And that is what 
ISAF is attempting to do.
    The challenge is there are a couple of other missions, as I 
see them, in this country. One is the counterterror mission 
which we have undertaken as part of Operation Enduring Freedom 
(OEF), to work not only within Afghanistan but in the region. 
This is one that is being done by U.S. forces and not by NATO.
    The other mission that is rather surprising to me----
    Dr. Gingrey. Admiral, if I could interrupt you just for a 
second, explain that again, because I may have missed that 
point.
    Admiral Fallon. NATO has undertaken the mission of 
counterinsurgency within Afghanistan. The U.S. retains the 
mission of counterterrorism.
    Now, on a given day, I would propose that you could flip a 
coin sometimes to decide which particular task might be in 
which category.
    There is another significant issue within this country, and 
that is the reconstruction of this nation of Afghanistan, the 
nation-building responsibility.
    NATO has not accepted that particular mission. But what I 
find fascinating is that there are people, many from NATO 
countries, that are working in exactly this area of trying to 
rebuild and to get institutions functioning and to reconstruct 
this country--not just NATO but other nations beyond that 
alliance, too.
    So it is confusing, and it isn't clean and neat. And from 
my perspective, as I am the geographic commander for this 
region, I have responsibility for all U.S. service personnel in 
here, although for some missions, operationally, they don't 
directly work for me.
    So this is something that I have highlighted to the 
secretary, to the chairman, and we are going to work on this as 
I get more into it, to make sure that I have a firm 
understanding of exactly what the lines are and how--at the end 
of the day, what we are really trying to do is figure out the 
way to be most effective and to actually get the job done, so 
we will work on that. But it is often confusing.
    Dr. Gingrey. Admiral, thank you. It is confusing to us, and 
it is a little comforting to know that it is still maybe just a 
touch confusing to yourself.
    But again, in my closing seconds, let me just say how much 
we appreciate and how much we realize that your job has got to 
be, at this point, the toughest one in the military.
    And I just say godspeed. I know you are going to do a great 
job and give victory a chance. And I thank you for that.
    Admiral Fallon. Thank you, sir.
    The Chairman. Mr. Spratt.
    Mr. Spratt. Admiral Fallon, you have a tough job, but I 
assure you you have our support in carrying it out.
    With respect to Afghanistan, I noted from your testimony we 
have roughly 25,000 troops there.
    Admiral Fallon. That is right, sir.
    Mr. Spratt. How many non-U.S. NATO troops augment our 
25,000 troops?
    Admiral Fallon. I don't think I would say it is augment. I 
think the number is about 14,000. But I will take that and 
maybe my staff can----
    Mr. Spratt. Is this all NATO can muster for----
    Admiral Fallon. I am sorry?
    Mr. Spratt. Is this all that NATO can muster, of the non-
U.S. member states?
    Admiral Fallon. I think that is a really good question to 
ask the NATO alliance. I would be very happy, and I know 
General McNeill would be happy, with additional support both in 
troops and in other areas that these countries have actually 
signed up for but have not so far enabled people to actually 
show up on the ground.
    Mr. Spratt. Several years ago, I was at Shaw Air Force 
Base, where Central Command Air Force is headquartered.
    Now, I had the opportunity to talk to the chief of 
intelligence and some of his junior officers who just returned 
from Afghanistan. They described it--while there was a tenuous 
balance of power, it was really a confederation of warlords.
    Would you describe the situation in the country today as 
essentially the same as that of a rather tenuous balance of 
power amongst the confederation of warlords?
    Admiral Fallon. No, I don't think I would characterize it 
that way. It is clear that the history of this area is one of 
tribal alliances and chieftains.
    But President Karzai is attempting to build a set of 
governing institutions to actually help to move away from that 
traditional construct, and one that is more representative of 
the people as a whole, and actually get people to work together 
and to feel confidence in a bigger government.
    It is a challenge, because the culture goes a different 
way. But there is certainly cooperation among the various 
factions and sects and tribes within that country, and he works 
at it every day.
    I am eager, as I go back there on subsequent visits, to get 
out and see each of these different areas, to get my own 
assessment of just how well this is working.
    Mr. Spratt. Are you concerned that some of the replacement 
troops and augmentation troops being dispatched both to Iraq 
and to Afghanistan are coming from units that, in some cases, 
are below C-3, C-3 or below, in their readiness classification?
    Admiral Fallon. The status of units that are in line to 
come to these countries is certainly of concern to me, but I 
have high confidence that the services, the Army and Marine 
Corps in particular, before they have these forces in the queue 
to actually come to me, will be in the appropriate readiness 
condition.
    And I know they are working very hard to make this so. 
Clearly, I come from a culture in the Navy, for example, where 
we have not traditionally tried to maintain every deploying 
unit at a high readiness level.
    We will recognize that events will occur that have these 
readiness levels dip for various reasons. But as they work up 
and prepare and do the training and get the personnel, 
particularly the new personnel, into these units, that the 
readiness levels will rise.
    And that is not unusual to have that occur.
    Mr. Spratt. When we visited the White House and the 
President laid out his surge proposal, Secretary Gates and the 
other there, including General Pace, as I recall, said that we 
will know within three months or four months whether or not the 
surge was working, within a fairly short period of time.
    What is the metric? What are the indicators that tell us 
whether or not the surge is working or not working and 
indicates whether or not this tactic is something we should 
pursue?
    Admiral Fallon. Two things. First, let me go back and 
correct myself. I have been told that closer to 20,000 is the 
actual number of non-U.S. NATO forces in Afghanistan.
    Mr. Spratt. Is what?
    Admiral Fallon. Twenty, two-zero. Twenty.
    Regarding benchmarks and assessments and so forth, one of 
my priority tasks is to look at the areas in which we would 
like to agree, certainly amongst my chain of command down 
through General Petraeus, on things that we would recognize as 
goodness and be able to make an assessment that things are 
really working as we would like them to work in this country.
    I will tell you that I have spent a fair amount of time 
already trying to determine which of these things we ought to 
measure and how we are going to do that.
    I don't have that fixed yet. That is something I am 
building. And I will continue to work this with General 
Petraeus.
    Mr. Spratt. Thank you, sir.
    The Chairman. I find it interesting. In making reference to 
conflicts of the past as to whether there were any such animals 
as benchmarks, we either knew we were winning or not.
    With that, Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman.
    I also apologize. I wasn't here in the beginning, but--so 
if this question has been asked, I apologize. And again, thank 
you for your service, Admiral.
    But regarding Syria, I was in Iraq recently, and as was 
mentioned in prior testimony, we were looking at some of the 
activities that Iran is involved in and the IED business, a 
particular type of IED, as you are aware of, that is causing 
hardship on our troops, and certainly killed in action (KIA) 
that we are still experiencing to this day.
    I wanted to know about what is happening along the Syrian 
border. I know we put the posts, border posts, in. I understand 
they are operating. They are manned.
    Has that significantly stopped the smuggling of foreign 
fighters, which I understand are the primary folks that are 
being utilized as suicide bombers both in Baghdad and the Al 
Anbar province, and weapons that are being used to attack our 
troops?
    Admiral Fallon. By every appearance to me, the bulk of the 
al Qaeda support, which is Sunni-linked, was coming down the 
Syrian rat lines, if you would.
    By the anecdotal recent evidence in Anbar province, which 
has been now consistently moving in the right direction--I 
mentioned earlier in the hearing that I got data yesterday that 
showed eight straight weeks of reduced level of violence in 
this heretofore pretty volatile province.
    That indicates to me that something good is happening out 
there. As I am told, and I will look forward to getting to each 
of these places down the Euphrates River Valley, which has been 
one of the traditional main sources of the flow of things that 
we don't want in the country, things have been significantly 
improved in most of these population centers.
    And so it seems to me that things are working. When I was 
up there a couple of months ago in the north, the northern 
part, to the west of Mosul, I was told that we had a much 
improved situation along the border, where the Iraqi security 
forces actually have the lead, but we had a pretty robust U.S. 
and coalition force backing them up.
    And it looks to me that appearance are that we are making 
progress in this area.
    Now, things need to happen inside of Syria, to my way of 
thinking. And this country, I believe, could be more helpful in 
doing things that would try to help cut off whatever support 
may be existing.
    There is a challenge here. There are many, many thousands 
of Iraqis that have migrated to other places for various 
reasons, some I am sure very innocently and just trying to do 
good for their families and get away from the violence, others 
maybe for different reasons.
    And so there is a significant population of these folks 
that are in Syria. How many of them are helping and aiding and 
abetting the troublemakers, I don't know.
    But we would welcome additional Syrian support to get this 
under control and cut down on, from their side, the transit of, 
particularly, foreign fighters into Iraq.
    Mr. Calvert. To be more specific, do you see any activity 
as far as the Syrian government, particularly President Assad, 
to do anything to stem the flow of foreign fighters and weapons 
into Iraq?
    Admiral Fallon. We have some intelligence reports that 
would indicate that some progress might be being made.
    I think more significant is likely to be the inclusion of 
Syria in fora such as this neighbors conference that is 
upcoming, scheduled to be held in Sharm El Sheik in Egypt, in 
which we can, along with others, encourage Syria and the other 
neighbors to be playing a constructive role in the development 
of Iraq and the security situation there.
    I think that to date, there has been very little in the way 
of assistance given by countries and, in fact, in the case of 
Syria, certainly negative assistance to help the situation.
    But I would like to see a collective effort made by 
regional leaders to agree to cooperate to help the situation, 
because it is, I believe, in their best interest.
    And in the long term, an unstable, insecure, chaotic Iraq 
is just going to be a real problem for every one of them. So I 
would think that, if nothing else, their own self-interest 
would take note of the fact that they ought to be doing more.
    Mr. Calvert. Again, thank you for your service.
    Admiral Fallon. Thank you.
    The Chairman. I thank the gentleman.
    Mr. Sestak.
    Mr. Sestak. Good morning, Admiral.
    Admiral, if I could take off on your comment about Anbar 
province, you told us in the last three months that the tribal 
leaders out there have decided to band together, and that is 
the reason why we are successful, because they are finally 
helping the U.S. military.
    My take, having been just there, is that what I heard was 
that may provide one of the three things I have heard you say 
in different ways. We need military security, but we also need 
political security and economic security.
    And so the Anbar province may now be gaining military 
security. What evidence that was missing was the national 
entity that the Sunnis could now tie into--Baghdad, we heard 
very senior government leaders say words like, ``The de-
Baathification law is an appeasement. The de-Baathification law 
isn't that meaningful.''
    But yet when you talk to the military commanders, they say 
it is absolutely critical. So we see an improvement, some say, 
in the military security in Baghdad, but what is the reason 
why? Have they gone elsewhere? Are they laying low?
    At the same time, we are told Iraqis were going to lead 
this, but U.S. military deaths are now in their third--which 
will be a record breaking--over 80 deaths per month, on our way 
to 100, although the Iraqis were to lead this effort. And we 
were told by someone very senior that the truth is they are 
not.
    So my question is even if you are gaining military 
security, where is the political security? And what movement do 
you actually see, since you and others have said it really is a 
political issue here also?
    Where is that coming, and what are your prospects for it?
    Admiral Fallon. Thanks, Congressman.
    First of all, I don't think we have a ghost of a chance of 
getting the kind of movement in this country that we--I think 
the vast majority of us would like to see, without a 
significant aura, if you would, of stability and security. So 
this is the critical function that the military can provide.
    There has been significant progress on the ground in 
several areas in this country. The focus is clearly in Baghdad 
and Anbar because these have been the historic hotbeds of 
challenge.
    The reason that many of the indicators are positive is 
because of the very significant engagement of U.S. forces along 
with Iraqi forces.
    But there is no doubt that it is our influx of personnel 
and the significant redistribution and refocus of forces that 
are getting them out into many areas they hadn't been into in 
large numbers before that are both providing the security but, 
regrettably, on the downside, putting our people in a position 
where they are certainly subject--and as you have seen, the 
casualty rates have been high in the last couple of months.
    And so this is certainly a price that we are paying for 
this increased security. But to the larger issue, if we can 
provide a sense of security, it hopefully will afford these 
people some space, some opportunity, to make these tough 
decisions.
    And I think they are really difficult. As I look at the 
leadership in this country, this fledgling representative 
entity called the government of Iraq, almost without exception 
the leaders come from positions of very narrow political base, 
from a party position or some other ethnic or tribal 
affiliation that has never previously paid attention to 
anything except the goodness and desires of a very narrow 
entity.
    What we are trying to do is introduce a concept by which 
these people will have to take responsibility for an entity 
called Iraq, much larger than themselves. It is a challenge. We 
have to encourage them.
    And the thing that we can do in the military is provide 
security and to encourage them every----
    Mr. Sestak. Admiral, if I might, I understand 
encouragement. But what is the leverage you have in the 
political process, particularly since we heard out there, from 
the very top, that the debate here about not open-ended 
commitments has actually helped move the process forward? In 
fact, Secretary Gates was quoted today in the paper saying it.
    What kind of leverage do we have? And what time frame?
    Admiral Fallon. Time is short, and we have tried to give 
them space to make these decisions. But at every opportunity, I 
carry the same message, ``You have got to start taking these 
tough decisions faster if we are going to be successful and you 
are going to be successful.''
    Mr. Sestak. Thank you, sir.
    The Chairman. Admiral, would you expand just a little bit 
on your last question that Mr. Sestak put about time?
    Admiral Fallon. About time.
    The Chairman. Please.
    Admiral Fallon. We have been at this for four years. We 
have seen various ebbs and flows of security but generally have 
not seen the consistent progress that we think we need to see 
to make this entity called Iraq the kind of functional 
representative government that we would desire.
    It is very clear to me that we have in play right now a 
significantly different approach to this, but that given the 
many factors that are at play that this is really the Iraqi 
leadership's major and potential last opportunity to really 
take this ball forward.
    We have made an extraordinary commitment, from our country 
and from our coalition allies, to provide them the space to be 
able to make the decisions to try to move this country forward.
    I can't imagine being given another opportunity of the 
degree and magnitude that they have been given now. And it is 
imperative, from my view, that they act on it.
    I recognize there are countless problems and challenges 
both from their historic and various backgrounds in making 
these tough decisions. But I believe that they have to do it, 
and we have to keep at them, make sure they understand it, that 
the heads all nod.
    Every meeting I have had with every one of them, they say 
they understand it, but these many inhibitors tend to slow down 
the decision making. But no doubt, it has got to move quickly.
    The Chairman. Admiral, should we ask you that question 
three months or four months from now, will you give us your 
best assessment at that moment?
    Admiral Fallon. Yes, sir.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Thank you, Admiral, for hosting our Congressional 
Delegation (CODEL) just after New Year's. I think we were the 
first CODEL of the new year to come through Hawaii. You were 
very gracious as our host. Thank you very much.
    Most of the focus in this country and around the world is 
on Iraq. But we are also in Afghanistan. And obviously, the 
quantitative challenge is very much greater in Iraq than it is 
in Afghanistan.
    But qualitatively, which of those has the better chance of 
success and why?
    Admiral Fallon. Well, I would like to think that both have 
a good chance of success. There are many, many reasons why we 
could and should be successful in both places.
    Iraq, if you would, has resources in great quantity. It has 
many, many thousands of acres of arable land that could feed 
many people. After all, this is the Fertile Crescent.
    It has a significant part of the population that is well-
educated and ought to be very helpful in moving this place 
forward. It has certainly got a lot of challenges. We have 
talked about those.
    But the foundations are certainly there, and I think the 
key issue now is whether the leadership in this country can 
pull together the significant factors to give the population 
the sense that they can be successful, that their future can be 
different and better than it was in the past.
    Afghanistan--I mentioned earlier that the most encouraging 
factor in this country is that the vast majority of the people 
clearly don't like the Taliban, don't want to go back to that 
kind of rule.
    They appreciate and support our presence there, and they 
want a better life. And they have a significant infrastructure 
of leadership, particularly in their security forces, that I 
think is in pretty good shape and should be able to help them.
    So there are many reasons why this ought to be successful 
in both places.
    Mr. Bartlett. Admiral, I had the privilege before we went 
into Afghanistan to visit the king of Afghanistan in his villa 
just outside Rome.
    It happened that at that same time there were, I think, ten 
of the tribal chiefs in the Northern Alliance that were 
visiting the king of Afghanistan, and so we had a chance to 
meet with them also.
    Very clearly then, and I think probably now, Afghanistan 
does not represent a unified central kind of a government 
focus. Is the command of the central government now any 
better--the control of the central government now any better 
than it was then? Because at that time, the central 
government--the Taliban controlled very little of Afghanistan, 
and the Northern Alliance--these tribal chiefs represented a 
huge counter force which ultimately, with our help, was 
successful.
    Will Afghanistan ever be a cohesive government, or will it 
forever, for the near future, at least, be--separation of 
tribal chiefs?
    Admiral Fallon. I would propose that Afghanistan will 
probably not look anything like the U.S. Government and the 
relationship between the Federal Government here and the states 
and communities any time soon.
    But I recognize, I think, in President Karzai a leader that 
has a very good understanding of what he has in this country. 
He has his own arrangements, connections, alliances, if you 
would, and processes for dealing with these various leaders 
around this country.
    He is quick to get out and about and go visit them. When I 
was there last time, he left, certainly, shortly after meeting 
with me to go visit one of the provinces and have an 
interesting meeting, I am told, with one of the governors.
    He knows the people. He has a hand in the selection of 
these people. And my sense is he has got probably, certainly, a 
much better understanding of how this works than I do. I am 
anxious to learn from him and to see.
    I don't think it is going to be anything like what we have 
here any time soon. But given the motivation of the people and 
what I saw of the competence of the leadership, they are 
working on it.
    Mr. Bartlett. Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentleman.
    Ms. Castor.
    Ms. Castor. Welcome, Admiral.
    This is quite a complex and complicated area of 
responsibility. And explain to me, as folks rotate into Central 
Command and out, what kind of training is--do folks undergo to 
understand the cultural diversity of this area?
    It is a diverse and dynamic area in and of itself. I know 
in your testimony you highlighted some of the challenges with 
the present inventory of language and intelligence specialists, 
and counterintelligence, language expertise, which is crucial 
to counterinsurgency, counterterrorism, counterintelligence 
operations.
    What is under way now? What tools do you have as folks 
rotate in and out? And then as we look to the defense 
reauthorization, do you have any recommendations for how we can 
improve the training and all of the specialists that you need?
    Admiral Fallon. It would be wonderful if we had--if each of 
us were fluent in languages in the regions in which we work. I 
will start with me. I don't speak Arabic, which is the most 
common language.
    It puts me at a disadvantage, one which I recognize, and I 
have been searching for that magic person that is not only 
fluent but very well-versed in the history and cultures of 
these regions.
    But I recognize that even in the Central Command there is a 
significant difference between the Sudan and the Horn of Africa 
and Central Asia, where the cultures are dramatically 
different. It is a challenge. It is one in which we recognize 
there is work to be done.
    At the highest level, at my staff, we have people that are 
assigned to be as expert as we can make them for their parts of 
the region. And we try to get them well-connected with the 
history and background and, if at all possible, to have some 
fluency with the language.
    It would be wonderful if all of our people that went 
forward were similarly equipped. I will be honest. They are 
not.
    We are working the priorities, clearly, in Afghanistan and, 
more importantly, in Iraq, to have people there that can be 
immediately useful in the field and in the intelligence work in 
analyzing what we have got when we apprehend people, or detain 
people, or run into situations that need assistance.
    And so there are a number of programs under way that are 
long-term. I know that for many years now, at least since 9/11, 
there has been an emphasis put on trying to get people to be 
trained in specifically these languages.
    And I know there has been some fruit there, but the demand 
far exceeds the supply of those people now, so it is something 
that we work. I recognize it. And we try to--every individual 
soldier and Marine that deploys out there is given some amount. 
And I would have to get back to you on exactly who gets what.
    Some, of course, have been out there before. Some are 
actually pretty proficient. They have managed to pick up the 
language, and they certainly know--but we make it a point to 
try not to have anybody show up in this theater that doesn't 
have some cultural sensitivity training.
    And that even applies to the Navy and the Air Force people 
that may not be on the ground, but certainly they have an 
opportunity to interact while they are there.
    Ms. Castor. And at MacDill Air Force Base, where the 
Central Command headquarters is located, I know there is a lot 
of construction. The facilities there are absolutely vital to 
the national security.
    Do you have any impressions coming on as the commander 
there on how the progress on those facilities are going and 
long-term needs?
    Admiral Fallon. Well, I can see the digging and hear the 
banging, so I know it is going on. To be honest with you, I 
have spent about three-quarters of the time since I have been 
on the job out in the region, so I haven't had the opportunity.
    But I know it is in work, and the intelligence section is 
the priority construction. And I know it is under way. And I 
would look forward to the opportunity to get into them when 
they are completed.
    Ms. Castor. And I hope you know that the Tampa Bay 
community is very supportive of the presence of Central Command 
headquarters at MacDill Air Force Base. And if we can assist 
you in any way, you know our community is there to do that.
    Admiral Fallon. Thanks. We have been made welcome. I look 
forward to seeing you out at the facilities when you can. 
Thanks.
    The Chairman. I thank the gentlelady.
    The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    And, Admiral, thank you for sticking around for a fairly 
long time this morning.
    Admiral, our efforts in Afghanistan go back to the events 
of 9/11. The people who perpetrated that crime were Saudi 
Arabians. They practiced their flight training in America. But 
we are told the mastermind who approved it and probably 
financed the effort was a guy named Osama bin Laden, who at the 
time was living in Afghanistan. We are now told that he could 
probably be on the border area with Pakistan.
    And on the recent trip that several of my colleagues just 
mentioned, I became aware for the first time of an area that 
has apparently been given autonomy by the Pakistan government 
called Waziristan, which brings to my mind, at least, what 
happened a few years back in Colombia, where the Colombians had 
actually given an area to the Revolutionary Armed Forces of 
Columbia (FARC) and they pretty well could rule themselves in 
that area.
    If Osama bin Laden was identified to be in a specific 
building, on a specific street, in a specific village in 
Waziristan--you had satellite imagery, human intel, several 
sources saying, ``He is there,'' and since he at the end of the 
day is the reason for our involvement in Afghanistan, do you 
have operational approval to strike at him in Waziristan?
    What would have to happen? What are the agreements or lack 
of agreements that we have with the Pakistani government to try 
to do something about that, if that situation came to you this 
morning?
    Admiral Fallon. Mr. Taylor, I can tell you that if I could 
get information on the exact whereabouts of Osama bin Laden, we 
would do everything we possibly could to try to get him.
    Mr. Taylor. Okay. But I have given you a fairly plausible 
scenario.
    Admiral Fallon. There are a couple of factors here that, as 
I met with both President Karzai and President Musharraf a 
couple weeks ago, I think are pertinent.
    First of all, this area in North Waziristan or the larger 
area of the FATA, so-called federally administered tribal 
areas--they haven't been given to anybody.
    The fact is they have never really been owned, if you 
would, other than the border line that goes to the west of them 
by the Pak government. These are areas in which there really 
isn't government authority--one of the more complex issues in 
this region.
    But to your point, I have, in fact, talked with President 
Musharraf about situations in which we might ask for specific 
help and have been assured that he would be--receive those 
should I bring those to his attention.
    So without getting into the details of how we might do 
this, I will tell you that from the highest level I have gotten 
his assurance of assistance if we have an issue that we think 
we need to work.
    Mr. Taylor. Well, Admiral, to the point, if that actual 
scenario occurred, if you had human intel, if you have 
satellite intel, if you had guys saying, ``He is right there,'' 
do you have standing permission from the Pakistan government to 
try to do something about that, either to actually capture him 
or kill him?
    Admiral Fallon. I do not have permission to go across that 
border on my own and to conduct activities within that country 
without some arrangement or agreement with the government of 
Pakistan.
    Mr. Taylor. The second question is--I am pleased to see the 
Sunnis coming our way in Anbar province, but I am kind of 
curious as to their motives.
    One line of thought is if the Iraqi--if you were to take a 
snapshot of the Iraqi government at this moment, the course 
that it is headed on, and project that out four years, my gut 
tells me it would look a lot like Iran.
    It would look a lot like Iran. The government--the way they 
treat their people would be an Islamic state that looks a lot 
like Iran, and that one scenario for the Sunni cooperation is 
they see us as leverage against that.
    Is that anywhere accurate in your mind?
    Admiral Fallon. Well, if I could get back to your first 
question, I think that there is an awful lot of self-interest 
that is the real motivator here. I don't think we have had any 
great awakening that they now really love us, and that they are 
happy that we got rid of Saddam, and that they are out of power 
now.
    I think this is a recognition that there is a greater evil 
here, and that evil is the constant terror and disruption of 
their lives that is perpetrated on them by al Qaeda and their 
allies, and they have had enough of it.
    And so they are going to cooperate because they see an 
alternative that might be a little bit better than what they 
have had to endure recently. And I think that is the prime 
motivation.
    Mr. Taylor. For the record, I would like your views of 
where you think Iraq is going to be four years from now, for 
the record.
    Admiral Fallon. Well, I can tell you what we would like to 
see in Iraq, and that is one that has made progress so that 
these various factions within Iraq--the majority of the people 
feel that there is actually a government that has an interest 
in them and not just the narrow base from which the actual 
leaders are drawn.
    And that is the critical step that needs to take place. If 
we are going to be successful, these populations--Sunnis, 
Kurds, Shi'a--all have to feel that this greater entity of Iraq 
represents a future that for them is better than what they have 
had in the past.
    Mr. Taylor. Thank you, Admiral.
    The Chairman. I thank the gentleman.
    Admiral, that is the confidence of which you spoke a few 
moments ago, am I correct?
    Admiral Fallon. Yes, sir.
    The Chairman. Ms. Davis.
    Ms. Davis of California. Thank you very much, Mr. Chairman.
    Good to see you, Admiral, and I think we all do recognize 
what a difficult task you have. And we are behind you in that. 
Thank you.
    You mentioned that you were going to be visiting the Iraqi 
security forces soon. And as a member of the Oversight and 
Investigations Committee, I know we have struggled to get the 
kind of numbers that we think are ones that we really can take 
a look at.
    And so I hope that as you visit--and if you can help us to 
understand those numbers, that would be helpful. I think there 
is a difference between those Iraqis who have been trained and 
those who are actually serving.
    We are also interested in the logistics issue and the 
capacity, really, of the military to develop the wherewithal to 
be able to do the job that is ahead of them and having some 
kind of a time frame in terms of all those pieces that have to 
be in play.
    I also just wanted to mention, because it is interesting to 
me--and I guess I have heard this several times. You know, we 
talk about the ability of the government to benefit their 
people, to provide services, and we seem to have dropped--and I 
am not sure if it is a casual drop or whether it is more an 
understanding of the situation--to drop the words of democracy, 
because, in fact, we know people can provide services but that 
doesn't necessarily mean that the people are all being well-
served.
    And it may just be a matter of omission, but it is 
interesting that you are not the only one. That word seems to 
have been dropped. And if you would like to comment, please 
feel free to do that.
    But I wanted to just turn to a different border now and ask 
if you could comment on what was reported in the International 
Herald Tribune, that the chief of the general staff of the 
Turkish army announced that from a military perspective it made 
sense for Turkey to invade northern Iraq.
    According to some reports, Turkey is already massing forces 
on the Iraqi border to prevent Kurdish rebels from launching 
attacks from Iraq into Turkey.
    And I wondered if--what you, General Craddock at EUCOM, are 
perhaps doing or working with our border there--Iraq's border 
there to understand that situation. And what is our plan, in 
fact, if Turkey would choose to invade northern Iraq?
    Admiral Fallon. Well, it certainly wouldn't be a great day 
if the Turks carried out that threat. The issue is that for 
quite a long time now there has been an insurgent movement of 
Kurds, now known as the Kongre-Gel, PKK in a prior day, which 
is instigating trouble and violence inside of Turkey, and they 
are tired of it.
    And they know that these groups get some support, in their 
opinion, from Kurdish populations within Iraq. They have been 
working against this problem for some time. They are looking 
for help. We are trying to assist them in this area.
    When I was in Iraq a couple of weeks ago, I spent the 
better part of a day in the north and actually with President 
Barzani. We talked about a lot of things, the contribution they 
could make to a new Iraq, by example and by playing a role to 
help mediate between the Shi'a and Sunni further south.
    And that part of Iraq, by the way, is decidedly different 
than Baghdad in its environs. It is booming.
    But I was particularly interested in a role that I would 
like to see them playing, they being the leadership of Kurds in 
Iraq, to try to minimize the impact of this Kongre-Gel in 
Turkey, because at the end of the day it is going to be 
certainly to their decided disadvantage and hurtful to not only 
that region but the whole country if the Turks carry out this 
threat.
    The Turks are concerned. I think they are making these 
statements to emphasize how concerned they are about it.
    And I know that we are working to try to play a role to get 
this kind of activity stopped and to do whatever we can to get 
those who could----
    Ms. Davis of California. Are you able to characterize it in 
terms of a level of concern right now in the region?
    Admiral Fallon. I guess it is one of the concerns. I don't 
think it is--and I certainly hope they don't carry out this 
threat. We are trying to convince them that this is not a good 
idea.
    Ms. Davis of California. Thank you.
    The Chairman. I thank the gentlelady.
    The gentlelady from Guam, Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Admiral Fallon, thank you for appearing before the 
committee today. And the challenges you face are diverse and 
significant, and I wish you and all those service members 
serving in the Central Command godspeed in successfully 
achieving your mission.
    I have two questions for you today, Admiral. First, four 
companies of soldiers from the Guam National Guard have rotated 
in and out of the Horn of Africa, and you have mentioned this 
region in your opening statement.
    The Horn of Africa assignment for the Guam National Guard 
soldiers is becoming a regular one. Can Guam National Guard 
soldiers and their families expect the Guam Guard to be rotated 
in and out of the Horn of Africa for the foreseeable future?
    Or can the Guam Guard anticipate a different mission?
    Admiral Fallon. I will have to get back to you, ma'am, with 
the specifics, but I know that we have discussed within the 
headquarters the idea that instead of taking folks on 
subsequent rotations and bouncing them all over the theater 
that it would probably be in our better long-term interest to 
have folks get very familiar with and do subsequent tours in 
the same area if it weren't too onerous for other reasons.
    So my first reaction to this one is that they will probably 
be reassigned to this area. But I will take it for the record 
and get back to you if it is different from that.
    [The information referred to can be found in the Appendix 
beginning on page 96.]
    Ms. Bordallo. Thank you. Thank you, Admiral. I do know at 
our last CODEL out to Guam, which was a couple of weeks ago, we 
visited the guard facilities, and I know they are very 
satisfied with that mission.
    My next question addresses one of my major concerns with 
respect to Iraq. You have recently begun your assignment as 
commander of Central Command and approached the challenges in 
your area of responsibility with fresh eyes.
    So given this fresh perspective, I would appreciate 
learning your thoughts on this issue. Iraq has 18 provinces. 
Analysts have identified five of Iraq's provinces as the 
predominant areas of violence in that country: Ninewa, 
Salahaddin, Diyala, Baghdad, and Anbar.
    Analysts have identified four of these five provinces as 
significant sources of violence, and that is Salahaddin, 
Diyala, Baghdad, and Anbar.
    Now, despite this, the President's surge plan addresses 
only some of the challenges in only two of those at-risk 
provinces. That is Baghdad and Anbar.
    That is, of the four provinces that are the sources of 
significant violence in Iraq, the President's plan addresses 
only two of them.
    But more broadly, it also can be argued that the 
President's new plan for Iraq, which is focused on improving 
the situation in only two of Iraq's 18 provinces, literally is 
16 provinces short of being a comprehensive plan.
    So assuming that the surge plan is executed flawlessly, and 
that results in successful outcomes on the ground in Baghdad 
and Anbar, will these successes constitute the completion of 
Operation Iraqi Freedom?
    Or, upon the completion of the surge plan, can the American 
people and Congress expect to learn of newer new plans for 
Iraq? Can you address this for the committee?
    Admiral Fallon. Ma'am, that is a lot of territory you 
covered, but I will tell you, I think it is really a good 
point, and I would like to talk about it.
    There is much more going on in Iraq than a focus in just 
Baghdad and Anbar. And I mentioned Anbar earlier--that we have 
seen significant progress in just about every respect out 
there, and that is really good, because this was really a tough 
territory.
    The facts are that of all of these provinces in the 
country, the ones that you have highlighted are, in fact, where 
most of the trouble is. And the reason is because these are the 
provinces in which you have the mixed sects interacting.
    In the majority of the south, it is all Shi'a, 
overwhelmingly majority Shi'a, and there is very little of the 
kind of sectarian violence that we see up in the center. In the 
north, in the Kurdish dominant lands--virtually nothing going 
on up there of an untoward nature.
    And so it is the center of the country where the three come 
into conflict.
    The reality is that we have significant forces that are 
working in other provinces, in Diyala, for example, which has 
become, in fact, significantly more challenging, probably 
because a lot of the characters that have been evicted out of 
Baghdad or decided on their own to leave moved up into this 
area.
    And because it has been an area of fault lines, there is a 
lot of conflict, and we have a major focus. So a lot of these 
troops in the redeployment have, in fact, moved--we have a much 
increased presence up in this area.
    In Ninewa, I guarantee you that this is not going to escape 
the attention of General Petraeus. He spent a couple of years 
up in this part of the country. He knows it very well.
    And in fact, we are very attentive to what goes on in and 
around Mosul, and we are going to watch it.
    I was in Salahaddin just a couple of weeks ago, met with 
our PRT and our military people up there. It is getting 
attention as well.
    And so I can guarantee you that we are going to not let 
these things out of sight. In fact, we are working them today, 
and it is part of the comprehensive plan.
    Mr. Taylor [presiding]. The chair recognizes Mr. Smith----
    Ms. Bordallo. Thank you, Admiral.
    Mr. Taylor [continuing]. Mr. Smith of Washington.
    Mr. Smith. Thank you, Mr. Chairman.
    I wanted to ask a question about Iraq, following up a 
little bit on some of the issues that Mr. Snyder raised 
earlier.
    The big question and concern that I have--we have got, you 
know, a big debate going on, certainly, and difference of 
opinion about the direction going forward.
    The question I have for you is at some point we are going 
to leave, and what is troubling to me, as we get further into 
this--it is increasingly difficult to decipher what the 
President and our command structure--or how, I should say, the 
President and the command structure envisions that departure.
    And I guess the problem I have is--you know, we have got a 
huge problem over there, and I get that we need to secure the 
situation, but bottom line, in terms of the big picture of 
battling al Qaeda, it is kind of a bad thing to have 160,000 
U.S. troops occupying a Muslim country.
    It undermines us in a whole bunch of different ways, and 
that is not to say that we shouldn't do it if it is necessary, 
but it is to say that it should be in the forefront of our 
minds to try to figure out how to extricate ourselves from that 
situation in as responsible a manner as possible, not just 
because of the bad international stuff, but as you mentioned, I 
think, in answer to Mrs. Drake's question, you know, supplies 
to fund Iraq and Afghanistan are coming from the rest of the 
military and causing enormous problems.
    And that is true, supplemental or no supplemental. We have 
got the readiness problem that we have got out there. So the 
bottom line is it makes sense to figure out some way to get out 
of there.
    And as I look at it and what the President is doing, it 
just seems like this massive sectarian violence, and violence 
of other kinds as well, and we are just trying to be there as 
it shifts and ebbs and flows to monitor it and try to prevent 
it.
    And there is really no end in sight. So if you could sort 
of help me out, what does it look like? You know, forget for 
the moment what Democrats or people who are against the war are 
saying.
    Just as a commander looking at that situation, thinking 
that we need to get out of there at some point, what does it 
look like when we do?
    What is the plan for an exit strategy? And what does the 
country look like? And is this something that the command 
structure has started to at least contemplate?
    Admiral Fallon. I would like to talk about the term you 
used: leave Iraq. I would propose that at some time in the 
future that we--and we are clearly moving toward and have as an 
objective transforming the security laydown and focus that we 
have in this country now to something significantly different.
    But the idea that we leave, as in ``we are out of here'' 
and all gone, strikes me as something that may not be 
particularly useful for this----
    Mr. Smith. Let me pick my term a little better: 
Significantly draw down. I mean, we have troops in dozens of 
different countries, and I know that we are going to have them 
there for a while.
    Admiral Fallon. Absolutely.
    Mr. Smith. Significantly draw down. Let's call it that.
    Admiral Fallon. So at some time we want to redefine the 
security arrangement with this country, and so I think this is 
something that would be helpful, as we discuss and you debate 
this issue back here, to--maybe it would be helpful for our own 
people to have that we, in fact, do have very, very useful and 
productive security arrangements with countries all over the 
world, the vast majority of countries in which we have some 
presence and engagement.
    And it is absolutely crucial and seen by people around the 
world as crucial. And certainly in this region, we would like 
to do that.
    Mr. Smith. And I agree completely. You know, I chair the 
subcommittee that has jurisdiction over the special forces. We 
have them in a large number of countries. Those are not 
occupations, however. So I am talking about a different set 
here.
    Admiral Fallon. And that is something that I am anxious to 
get into. We have some challenges today we have got to 
overcome. We have got to help get the security.
    But you mentioned massive sectarian violence. I would tell 
you that the data that I am seeing now indicates that that 
particular segment of concern is dramatically improved.
    If you were to look at the number, if you--again, one of my 
challenges is, of all the data that I am being inundated with 
in the last four weeks here, trying to decide what is the most 
important, to be able to be predictive of how we are really 
doing and assessing where we have come. I am working with it.
    But one thing that is really standing out--if you look at 
the number of deaths that we have been able to identify over 
the last several months, you will see a dramatic improvement in 
those numbers.
    There are still hundreds of people, bodies, that are 
showing up in the morgues in this past month. But compared to 
where it was back in December and January, there is a 
significant improvement.
    There is no doubt in my mind that this is a direct result 
of the increased security presence in these areas of conflict 
that I just mentioned, in the friction areas of Baghdad and its 
immediate surroundings.
    And this is the presence of our forces and particularly the 
Iraqi security forces making a difference. So it isn't just 
ebbing and flowing. There is a significant improvement in many 
of these factors.
    Now, as I mentioned earlier when I first got into the 
hearing, the biggest concern I have are the periodic big bangs 
which are really troublesome because of the potential to 
instigate retaliation and retribution by the Shi'a.
    Mr. Smith. Well, like this morning, for instance. I am sure 
you have seen the news. There was over 130 killed in Baghdad--
or I guess it was maybe yesterday, but--so there is some ebb 
and flowing going on there.
    Admiral Fallon. There are certainly events. I watch it. I 
flip my computer on every morning. I am anxious to see what has 
happened. And we are in a phase where we have a lot of change 
going on.
    And I would just ask that we collectively allow these 
changes to get in place and to see what the effect is over a 
period of several months--and I don't think we have a whole lot 
longer than that--to get a realistic view of how we are doing 
and what the chances are for continued success in the future.
    Mr. Taylor. Thank you, Admiral.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Taylor. The chair recognizes Ms. Gillibrand.
    Mrs. Gillibrand. Thank you, Mr. Chairman.
    I have a few areas of inquiry. The first--you know, I spend 
my weekends going to public forums and to Congress on Your 
Corner, where I talk to regular folks about issues that matter. 
And one young woman came up to me and said, ``What is Congress 
doing about Darfur?''
    And I wanted to get a sense from you what militarily is 
possible, if there will be any involvement, and what your 
thoughts are about stabilizing that region.
    Admiral Fallon. This has been a troubled area for some 
time, as you no doubt are aware. There has been a mission in 
the Darfur area undertaken by troops from the African Union to 
attempt to provide some stability and security in the area.
    I think by most accounts it has been not particularly 
effective. And so there has been a lot of pressure on the 
government in the Sudan to allow--one proposal is a U.N. force 
to actually get in there and see if it can do more.
    I am told that there have been some public pronouncements 
in the last one and a half days that indicate that the 
government has now at least ostensibly agreed to allow for a 
U.N. presence.
    And I think if that turns out to be true--again, I am the 
new man in town here, but I understand we have kind of heard 
some of these stories before that haven't turned out to be 
quite as they have been told.
    So this would be a good turn if, in fact, this turns out to 
be true, at least to give a chance to get some other folks on 
the ground and maybe a better chance to do it good.
    Mrs. Gillibrand. Thank you.
    My second area of inquiry, of course, is Iraq. And I have 
particular concerns about Muqtada al Sadr's role and his 
prevalence in the region.
    I would like to get an update from you about the current 
disposition of his army, how many members, how are they armed 
and who is paying for them, how are they funded, and then 
really what your assessment is about what al Sadr's impact of 
having his six followers leave Prime Minister al Maliki's 
government.
    Admiral Fallon. One, I would say that to characterize his 
band of militias as an army is probably giving him more credit 
than they are really due.
    There is not much good to be said about the JAM, as they 
are called, Jaish al Mahdi, which is the militia that appears 
aligned to him. There was an interesting discussion today and 
in recent times about Muqtada al Sadr.
    He clearly has a populist following among a certain segment 
of the Shi'a population in the country. He has been publicly 
very unhelpful in comments that have been attributed to him.
    Now, we don't know what he is really saying, because we 
don't know really exactly where he is. By all reports, he is in 
Iran somewhere.
    And that is indicative of probably the fact that were he to 
come back into Iraq, folks would probably like to get a hold of 
him and have a conversation of sorts.
    He has not been playing a particularly helpful role. But I 
wonder what is going on, and I think the jury is out on this 
one right now, exactly how much influence he has over how many 
people.
    There are things that he has perpetrated, the most recent 
being the--two things that stand out in my mind. One is the 
admonition, allegedly, to his folks to go ahead and not 
cooperate--that is a euphemism, I think, for go after the 
coalition--and what that might mean for our people.
    The second is his alleged direction to have the cabinet 
members of the Maliki government that are aligned with his 
party to bail out. So it remains to be seen what is going to 
happen.
    There is a little bit of history here, in my mind. One is 
that last year, at the end of the year, he allegedly directed 
the members of the COR that were aligned with his faction to 
depart that legislative body.
    But after a couple of months, they somehow decided that it 
was maybe in their better interest to come back in again. The 
net effect of this appears to me to be about a zero.
    And I suspect that in the longer term, at least my 
appraisal of this is that his effectiveness as a leader may not 
be nearly as great as it may have been.
    So we are watching this one closely. There are clearly 
factions developing within his militia, if you would, the JAM. 
These are not nice guys.
    If some of these factions might be split into somebody that 
is more amenable to actually working with this government, it 
would be particularly helpful. I think that remains to be seen.
    So he is kind of an enigmatic figure of dubious help, I 
think, to the government, but clearly with some following, and 
we are just going to have to watch to see what comes here.
    Mrs. Gillibrand. Thank you. And thank you again for your 
leadership and your tremendous service.
    Admiral Fallon. Thank you.
    The Chairman [presiding]. Mr. Courtney, please.
    Mr. Courtney. Thank you, Mr. Chairman.
    Admiral, looking at your scope of command and the range of 
places we have talked about today, I was sitting here thinking 
you must feel like you are in that Johnny Cash song, ``I Have 
Been Everywhere.''
    And just to keep moving along, a couple of months ago we 
had a hearing where it was brought out that two aircraft 
carrier battle groups were being located in the Gulf.
    And obviously with your background, maybe this would be a 
good opportunity to ask you some questions about that, because 
obviously--and I don't think there is any great surprise to 
you--there was a lot of concern about what the policy goal--
what the national security goal was being achieved by doing 
that.
    And I just wondered if you could comment on the current 
status of naval operations in the Gulf and what the planning is 
for those aircraft groups.
    Admiral Fallon. We routinely deploy forces around the 
world, as you know. It seems to me that it is to our interest 
as a nation that we periodically demonstrate our capabilities, 
which are substantial, to be able to influence events when 
required in various areas of the world.
    We certainly have our land forces, the Army and Marine 
Corps, very busy today in Iraq and Afghanistan. Some folks 
might have the idea that because we are busy in these areas 
that we don't have the capacity or will or capability to 
actually be interested in other things that might occur.
    To the contrary, our maritime and air forces are very 
capable and can operate in many places.
    It is also to the advantage of the operational forces to 
periodically put capabilities together to make sure that we, in 
fact, are understanding of the challenges of operating forces 
in sizes that are above what we would characterize as the more 
routine deployments.
    And so in practical terms, for the Navy, if there were to 
be an event of some significance anywhere in the world, you 
would probably ask for forces that were over and above the 
typical deployment of maybe a single aircraft carrier strike 
group or a single Marine expeditionary unit.
    And as we demonstrated last year in the Pacific, where the 
commanders out there, the naval commanders, actually pulled 
three--and actually, for a while, four--aircraft carrier strike 
groups to operate in the same general area at the same time, it 
gave our commanders a rare opportunity to exercise the scope of 
responsibilities that they would have to be capable of doing in 
the event of some crisis in the world.
    It also tests our ability to support and sustain these 
kinds of operations.
    It was apparent, because these balls are in motion well 
before I appeared on the scene, that we had not recently 
demonstrated any of these capabilities in the Central Command 
region.
    And so there were two carriers that were made available and 
have operated and done significant work. And so I think this is 
in our interest to demonstrate to ourselves our capabilities 
and to prove to our people and to get the experience of 
operating in various regions. It is in our interest to do that.
    And it is also, because I have had this comment just in 
past weeks as I traveled around the Gulf, certainly noted by 
our friends, allies and supporters, and I am sure by others, 
that we are capable of doing this, and it is reassuring, 
certainly, to many people that we are not only interested but 
capable of doing these things.
    So I think I am not going to provide advance notification 
of future operations, but I would say that I think it is in our 
interest to periodically take our forces and to operate them in 
the sizes and shapes of capabilities that we ought to 
periodically demonstrate.
    Mr. Courtney. And obviously, there was an incident that 
just happened there involving the Iranian navy and the British. 
And I mean, there was some question about an agreement that was 
instrumental in getting the release of those sailors.
    I don't know whether you have any comment about our own 
possible involvement in such an agreement, whether the rules of 
operation were changed, or what effect that is going to have--
--
    Admiral Fallon. Yes, there was another question earlier 
about some agreement. There is certainly no agreement between 
the U.S. The agreement that was reached between the British and 
the Iranians to get the freedom of those people is a detail 
that was only between those two countries. But the U.S. had no 
part of that agreement.
    The Chairman. I thank the gentleman.
    Ms. Giffords, please.
    Ms. Giffords. Thank you, Mr. Chairman.
    And congratulations, Admiral Fallon, on your new position.
    There are currently about 20,000 security contractors 
serving in Iraq. And I am curious, since you took command of 
Central Command, what explanation have you received of the 
legal status of security contractors working in both Iraq and 
Afghanistan?
    What legal system do they currently operate under? And what 
is the process by which they can be disciplined for misconduct?
    Admiral Fallon. The answer is I don't know yet, but I will 
find out. This issue came up yesterday when I was in the HAC. 
It was news to me.
    I was certainly aware that we had many contractors of 
various sizes and shapes and descriptions working in both 
countries, and for many well-intentioned reasons.
    The numbers of them that are providing security I don't 
know exactly, but I can get back to you and find out.
    Whoever they are, and if they are working for U.S. command 
that is under my responsibility, they are certainly going to be 
under our control and operate under certainly the same general 
rules of engagement that our people would operate, as a 
minimum. We will make sure that there is--I can't imagine that 
they have any more latitude than our own people do.
    Before I misspeak here or get into it, I will go find out 
the detail of it. All I can tell you is that many entities 
within both countries have hired, my understanding is, security 
contractors to do work for them.
    Many of these folks are not working for U.S. entities. They 
are working for other governments, either Iraq or ministries 
within Iraq, for example, which I know are pretty plentiful, or 
in Afghanistan working for other entities.
    But we will find out and get back to you.
    [The information referred to can be found in the Appendix 
beginning on page 97.]
    Ms. Giffords. Well, Admiral, let me tell you about an 
experience that I had when I was in Iraq just a couple of 
months ago.
    You see our United States military, and it is very clear 
what they look like and what they represent, by their uniform, 
by how they act and who they are accountable to.
    To see, you know, the Blackwater, the Triple Canopy 
security forces--these guys, frankly, look like thugs. They 
have got tattoos. They have got earrings. They don't wear a 
uniform.
    And for those Iraqis or the people of Afghanistan, it is 
not clear who is United States military and who is a 
contractor. And frankly, it blemishes our reputation.
    Also, if you had a chance to see the article yesterday in 
The Washington Post about what was happening with Triple 
Canopy--and I urge you to read this.
    The former director of the security for the Green Zone, 
when asked about the incidents of Triple Canopy in terms of the 
shooting rampage that went on and this cover-up, he was quoted 
saying, ``This is out of my venue,'' and he referred the 
company to the Joint Contracting Command.
    And then when Major Small, who is a spokesperson for 
Central Command, was asked about this, he replied, ``This is 
not a CENTCOM issue. It is for whoever is running the 
contract.''
    We cannot allow this to perpetuate and to continue on, 
Admiral, and I would just like your opinion about that, and how 
we are going to immediately take control of the situation.
    Admiral Fallon. Well, let me say that I think it is a 
really good point you make about the issue of identification 
and image. We are in both of these countries with an avowed 
mission of trying to help them to establish security and 
stability.
    And any image of lawlessness, or gunplay or other reckless 
kind of cowboy behavior that is described here, of which I am 
not familiar, but--strikes me as being exactly the opposite of 
what we want to do.
    As far as CENTCOM having no ownership of this, I will tell 
you what. If it has to do with security in either one of these 
countries, we have got a dog in this fight and we will find 
out.
    I guarantee you General Petraeus, as our commander on the 
ground there, is very interested in anybody who would be doing 
anything that would either tarnish the image of what we are 
trying to do or actually contribute to instability or 
lawlessness in any way.
    So I got it, and we will get on it.
    Ms. Giffords. And one other point, Admiral. When talking 
with some young soldiers over there, they are very aware that 
these contractors are making $500 a day, $600 a day, $700 a 
day.
    And frankly, it undermines morale of our United States 
military when they are making $24,000 a year, and meanwhile 
someone--a kid that comes in that has--you know, didn't 
graduate from high school, that--you know, there is just a 
whole range in terms of the background of some of these 
contractors.
    And so it doesn't just affect our reputation, but I think 
it undermines as well our United States military.
    Admiral Fallon. Well, I have no idea what these folks are 
being paid, but I will tell you that at least the proposed 
reason for why they are there is precisely so that we don't 
have to have more U.S. uniformed people on the ground to do 
these security functions.
    So if what was well-intended is now working against us, it 
is certainly not what we want to perpetuate, and we will take 
it on and do something about it.
    Ms. Giffords. Thank you, Admiral.
    Admiral Fallon. Thanks.
    The Chairman. The admiral will recall my earlier request 
regarding contractors to be answered on the record----
    Admiral Fallon. Sir.
    The Chairman [continuing]. Which I would appreciate.
    Ms. Shea-Porter, please.
    Admiral Fallon. Yes, sir.
    Ms. Shea-Porter. Thank you.
    Admiral Fallon, thank you so much for your service. I 
wanted to say that I was in Baghdad last month, and I would ask 
that you speak to me privately for about 60 seconds, following 
up on what we just heard from the congresswoman.
    Admiral Fallon. Sure.
    Ms. Shea-Porter. I think it is very critical.
    Thank you for being here. What I wanted to talk to you 
about today was what our chairman had talked about, the growth 
of extremism and what instruments of our national power we 
would use besides military over time.
    And I wanted to talk about an article that was in USA Today 
that talked about Iraqi children. And they had photo of 
children looking out a school window as U.S. soldiers were 
climbing onto the roof.
    Now, I know those U.S. soldiers were trying to protect 
those children. I am not sure the world knows that when they 
sent that photo around.
    And then the article went on to say that 70 percent of the 
Iraqi children are showing extreme post-traumatic stress 
syndrome disorder.
    And I am very worried about the fact that the psychiatrists 
and psychologists have fled the country now, so they are not 
there treating them, and that these children, who have been so 
traumatized by all that they have seen--walking to school, they 
see people blown up.
    How are we going to convince these children that we are, 
indeed, good people, which, of course, we are, but how are we 
going to convince them not to join the terrorists and the 
extremist movement after seeing what they have seen and going 
untreated--undiagnosed, untreated, and their communities are 
falling apart?
    What is our role there, as you see it?
    Admiral Fallon. A couple of comments. This challenge of 
media reporting is one in which I have a high interest, and we 
owe it to ourselves as well as the Iraqis to try to get the 
appropriate reporting and imaging done.
    As I see reports, both the official things that I see 
through the chain of command and then read the media reports, I 
am struck by sometimes a divergence in the description of the 
event.
    And visual images, of course, are ones that are even more 
challenging. But it seems to me that we both in the military 
and all of our forces working this need to be sensitive to the 
fact that at the end of the day the most important target, if 
you would, of our attention is really the Iraqi people's 
perception of how life really is, and whether it is really 
better to live in the day-to-day uncertainty of terror and who 
is going to be alive or wounded tomorrow, or a better future.
    And so trying to help the government of Iraq to do the 
things, to make the decisions that would move this thing 
forward--and at the same time being very sensitive to things we 
do.
    You know, we are trying to provide security. I am certain 
that in the process of doing that, there are images of our 
actions there that appear to be convincing people that maybe 
this isn't a good deal.
    Ms. Shea-Porter. Well, let me say----
    Admiral Fallon. We have just got to work on it. I don't 
know how to do--I mean, we know what we are trying to do.
    General Petraeus is trying his best to make sure that his 
commanders are highly sensitive to the image that they portray 
as they go about their duties.
    Ms. Shea-Porter. I may have been misunderstood. It is not 
the image that I am talking about. It is the reality.
    Let's get over the picture and say that what I was talking 
about was the fact that the children of Iraq are seeing a 
country that is being laid to waste in areas and that they are 
suffering greatly the psychological damage.
    And what are we going to do to remedy some of that, to 
stabilize that country, so that these children will not grow up 
to be the new wave of terrorists?
    Admiral Fallon. I guess in my mind, first things first. We 
have to convince their parents that they ought to be helping 
the government and the security forces of Iraq rather than the 
insurgents in the daily decisions they make.
    Ms. Shea-Porter. I don't even think it is that, Admiral. I 
think that a lot of the people actually initially supported 
this. I think what is--is when they talk outside and their 
children are shot or see something terrible, that that is what 
is turning it, that what is happened has been this terrible 
violence.
    So I don't even think it is a question of whether the 
parents supported something. You could talk the parents into, 
you know, supporting the government. I think it is just a fact 
of what they are seeing.
    How are we going to treat the children? And how are we 
going to create some kind of a societal fabric again?
    Admiral Fallon. We have to get the people to believe that 
there is a future, and the way that future is going to come 
about is by helping this government that is in place to make 
life better for them.
    And the children we will deal with or try to help the 
government deal with those children as you get--but the 
children aren't making the decisions to aid and abet the 
terrorists.
    It is the parents and others, the adults in the society. So 
we have got to--I think we have got to start there. I would 
love to help the children----
    Ms. Shea-Porter. I respectfully suggest that most of those 
parents are not doing that with their children. But I 
understand what we are saying, that we don't have the answer, 
and I thank you for at least addressing the question, Admiral. 
Thank you very much.
    The Chairman. I thank the gentlelady.
    The gentleman from Hawaii, Mr. Abercrombie.
    Mr. Abercrombie. Admiral Fallon, aloha.
    Admiral Fallon. Aloha.
    Mr. Abercrombie. Admiral, you already mentioned there is--
at least what we know from media reports; I don't know what the 
actual numbers are--127 dead in hospitals today in Baghdad 
itself, hundreds wounded.
    I cite that not to get in a discussion about whether that 
represents dramatically improved progress, or significant 
progress or anything like that.
    Those kinds of things, I think, are relatively useless, and 
I wish we could get away from that kind of discussion. For me, 
that has political import.
    My sole purpose in talking with you today has to do with 
the military side of it. There is entirely too much politics 
coming across from both sides in a lot of these hearings, it 
seems to me, these days.
    I am sure you understand my meaning when I say I am not 
interested in your political views or your assessment of the 
efficacy of the political circumstances that you find you have 
to contend with when the military factor, the military element, 
of it is what you have responsibility for.
    And that is the thrust of my questions to you. I am very, 
very concerned about the answer that you gave to Ms. Davis in 
the military context here.
    That is to say, what is the role of the United States 
military, if any, in the upcoming situation that we are going 
to confront--that the United States military will have to 
confront in terms of Kurdish nationalism and the referendum to 
be held this December?
    I know that General Ralston is appointed--I don't know if 
he is subordinate to you in this particular endeavor--as a kind 
of envoy in this situation in anticipation of it.
    I believe this referendum is going to go ahead. I believe 
the Kurds will absolutely demand it. I believe that there is 
very, very difficult circumstances regarding the Turkmen and 
the ethnic cleansing that----
    Admiral Fallon. This is the Kirkuk referendum that you are 
speaking of?
    Mr. Abercrombie. The Kirkuk referendum, yes. Without going 
into too much detail of the back and forth between the Turks 
and the Iranians, for that matter, who--at least the 
information that I have is that the Iranians and the Turks are 
talking about it, because they all have an interest in the Kurd 
situation.
    My question has to do with where we fall in this situation. 
We seem to be, in all the answers you give today, finding 
ourselves as referees, or commentators, or interpreters of one 
kind or another.
    Do we have a military responsibility, and do we have a 
plan, if you will, with regard to what happens with regard to 
the referendum in Kirkuk in December?
    Do we anticipate participating in a military way in the--
and I see you shaking your head ``no''. I don't see how that 
can be avoided if there is a--if we are occupying the country 
and there is a clash that takes place as a result of the Kurds 
not reconciling, as Secretary Gates would like them to do.
    Admiral Fallon. Sir, my earlier comments to Ms. Davis were 
in connection with the cross-border activity with the Kurdish 
terrorists and insurgents operating inside of Turkey.
    Mr. Abercrombie. They don't see themselves as terrorists 
and insurgents. We are in trouble already.
    Admiral Fallon. Maybe, but the Turks sure see them that 
way.
    Mr. Abercrombie. I know they do. That is my point.
    Admiral Fallon. The fact is that the Kirkuk thing--this is 
the political process. This is an attempt to define a future 
for this region as a political entity----
    Mr. Abercrombie. I quite agree.
    Admiral Fallon [continuing]. The military.
    Mr. Abercrombie. That is why my question is do you see a 
role for the United States military in that context?
    Admiral Fallon. I do not.
    Mr. Abercrombie. Could we take that that we do not have 
plans, then, to intervene should there be a clash between the--
whatever the clash may be up there?
    It doesn't necessarily have to be between the Turks and the 
Kurds, let alone Turkish Kurds, but this can be internally in 
the Iraqi so-called reconciliation process that we are 
attempting to support politically.
    I am concerned that the United States military will find 
itself being called upon to try and solve a political problem 
in the Kurdish north that--I don't think such activity would be 
conducive to any kind of resolution.
    Admiral Fallon. The provinces in the north that are 
predominantly Kurdish are teed up as next in line after Maysan 
in the south to revert to what they call PIC, or provincial 
Iraqi control.
    And this is another step in a process that we would hope is 
much more political than the military. We would hope not to get 
involved up there any more than we have to.
    We are in a position to provide oversight and overwatch, 
and we will certainly respond if there is some significant 
untoward incident, but we are pushing the Iraqis hard to try to 
figure this out themselves.
    Mr. Abercrombie. My time is up. I am sorry. But I want to 
conclude, Admiral and Mr. Chairman, by saying I certainly hope 
that we don't end up in hopes. I don't think we can live in 
hope in this.
    Mr. Chairman, I think we have to have a very clear 
understanding of what the United States military responsibility 
is in the wake of any kind of internal Iraqi conflict, let 
alone border conflict, with regard to the Kirkuk referendum.
    The Chairman. I thank the gentleman.
    Admiral, there have been recent news reports that suggested 
that America was close to announcing a large arms sale to 
certain Gulf nations as part of a so-called Gulf security 
dialogue, but also that this is the--the news reports are that 
this has been delayed by Israeli concerns. Are you aware of 
this?
    Admiral Fallon. I know that the Gulf security dialogue is 
an initiative to try to get multilateral cooperation among the 
Gulf states, to try to find common ground in things that would 
be useful for better security and stability in the region.
    I have in my briefings, as I have gone into this, gotten an 
assessment of where we are with certain countries, and I think 
it is a good idea. It kind of runs against the traditional tide 
here, because most of these folks like to do bilateral things 
as opposed to multilateral.
    Regarding the details of a massive arms sale somewhere, I 
am not up to speed on that one. I know that as I visited some 
of the countries in the last couple of weeks, there are 
specific requests for certain items that are out there, and I 
know those are being worked, but I am not aware of any 
particularly massive sale.
    The Chairman. Along that same line, the reports that the 
U.S. and others allowed North Korea to ship some arms to 
Ethiopia--what steps are being taken to convince the Ethiopians 
to sever relationships, if any, with the North Koreans?
    Admiral Fallon. What I believe I understand to date about 
Ethiopia is that of all the countries in the Horn of Africa, 
the Ethiopians at least appear to be playing the best shot at a 
constructive role in helping to deal with the instabilities in 
their region, particularly with Somalia.
    And the extent to which they have received help from others 
is one that I will be interested in. I suspect that there are 
probably deals with the devil here that I need to check on and 
see exactly what is going on.
    I don't have that information. I will look at it. What I do 
know is that Ethiopia has been attempting to help to stabilize 
this region, which we certainly support, and I will have to get 
back to you and see just what is going on.
    The Chairman. Admiral, we were talking about benchmarks a 
little while ago, and the Administration has seen not to hold 
the Iraqi government's feet to the fire regarding benchmarks.
    But let me ask you, how hopeful are you that the Iraqi 
government will actually pass and implement a meaningful oil 
reform, constitutional reform, as they have promised, and de-
Baathification reform, which has also been promised?
    Admiral Fallon. Mr. Chairman, I wouldn't want to predict--
--
    The Chairman. I know predicting legislation is not always 
an easy thing to do, but nevertheless, this is terribly 
important, because they have promised to do these specific 
pieces of legislation, so how--do you have any thought?
    Admiral Fallon. Sure. I would assess these as very 
essential elements to indications that this government is 
taking the steps that are necessary to make this a viable 
entity in Iraq.
    And it seems to me that they need to take these actions, 
they need to make them effective, and that people need to see 
them as something that would give them the kind of hope that 
would engender greater support and greater stability in the 
country.
    Without them, it is difficult for me to see significant 
progress, unless they are actually enacted.
    The Chairman. Do you have any judgment as to a time table 
regarding these three reforms that I mentioned?
    Admiral Fallon. No, I do not. I know that they are 
constantly in play, in discussion, and for my part, when I 
visited and spoke with the prime minister and the other leaders 
a couple of weeks ago, I made known my strong opinion that I 
thought these were essential steps that needed to be undertaken 
at the earliest opportunity.
    The Chairman. I have had the opportunity to be at the 
National Training Center some time ago, and of course we have 
the National Training Center as well as the Joint Readiness 
Training Center for pre-deployment rotations or which are 
returning to Iraq after a good number of months here in the 
home station.
    I understand that there is a deployment of a good number of 
forces to Iraq, both active duty and National Guard, that have 
not been able to go to either the National Training Center or 
the Joint Readiness Training Center.
    That concerns me a great deal, and I worry about the 
readiness challenge that the lack of attendance at these 
training centers will bring. Are you concerned about that?
    Admiral Fallon. I would like to have every one of our units 
that deploys to Iraq to have the opportunity to get the maximum 
benefit of all the training that could be made available to 
them.
    I suspect that given where we are that it is going to be 
very challenging for the Army to get each of these units to 
participate, certainly, to the full extent of the soldiers that 
would deploy to these entities.
    I am going to be relying on my subordinate commanders to 
accurately assess the training status of these forces, and if 
they are not adequately prepared to go to Iraq that they would 
tell me that, and that we would take appropriate steps to make 
sure that if they are perceived to be deficient that they would 
be corrected.
    So this is one that we are going to have to make sure my 
commanders understand and that we are getting the accurate 
assessments that are so necessary for the reasons you stated.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    And I just ran over to the floor a minute ago for the 
commendation that Mrs. Drake is leading to commemorate the 
anniversary of the special operations forces. And there is lots 
of speakers over there to commemorate these great men and 
women.
    I came back here to get these last questions in, so thank 
you, Mr. Chairman, for letting me come back here and ask a few 
follow-ups.
    The gentlelady spoke a few minutes ago--and I wish she were 
still here--who spoke in a disparaging way about contractors, 
and I am just reminded that the Blackwater Group which is over 
there, to the information I received, is mostly American 
veterans, honorably discharged, many of them from Special 
Forces Command.
    Many veterans who have served a lifetime in the SEALs, 
special forces, Army Rangers, are presently contractors, and I 
am further reminded that it was--I believe it was Blackwater 
employees, contractors, who were hung from the bridge in 
Fallujah, when they were undertaking their mission over there 
that precipitated the initial battle of Fallujah.
    And so there are many, many honorable people doing a great 
job as contractors in Iraq and some in Afghanistan. And in 
fact, many of them come from American Special Forces Command.
    To my information, nobody who ever received a dishonorable 
discharge--and they were spoken of as thugs with tattoos and 
other things.
    I don't believe anybody with dishonorable discharges from 
the military are allowed to participate as contractors, at 
least in the group that is known as Blackwater. Do you have any 
information to the contrary, Admiral?
    Admiral Fallon. No, sir, and I would agree that it is not 
particularly useful to generalize for what may be--and I am not 
familiar with the details of the incident that the 
congresswoman referenced.
    But I would agree with you that we have seen some terrific 
service by people in contracting status, be they in the field 
doing this kind of work or other things that are highly 
supportive.
    I have had a chance to meet several contractors, if you 
would, that are working for General Petraeus that are doing 
phenomenal work for him in trying to think through and come up 
with the best way ahead in these challenging circumstances.
    Mr. Hunter. The last observation I would make on that is 
that most of those folks that have tattoos--and a lot of them 
have tattoos--my son has done two tours in Iraq. He has got a 
USMC tattoo. Most of those received their tattoos while they 
were in the United States military. And to disparage people 
because they have got tattoos I thought was not, as you said, 
particularly helpful.
    Let me ask you a question that goes right to the point of 
the supplemental, Admiral. I have got a copy of the 
supplemental there. Your staff has got it right behind you.
    And I direct you--it is right behind you there--to page 72, 
which has been a provision of enormous concern to me and to 
other members of the committee, and it says this.
    It says, ``None of the funds appropriated or otherwise made 
available in this or any other act may be used to deploy any 
unit of the armed forces to Iraq unless the chief of the 
military department concerned has certified in writing to the 
Committees on Appropriations and the Committees on Armed 
Services at least 15 days in advance of the deployment that the 
unit is fully mission capable.''
    Now, I have asked our lawyers what that means, and that 
says you have got to wait 15 days. Even if they are fully 
mission capable, you have got to tell this committee and other 
committees two weeks before you make that deployment that you 
are going to make it.
    And, Admiral, I am reminded that many of these missions are 
after targets which are fleeting targets. Some of them involve 
teams--in fact, some of those celebrated special forces teams 
that we are commemorating on the House floor right now--who 
come from out of country who have to enter Iraq.
    And what our lawyers tell us, at least, is that that means 
they can't enter Iraq unless there is a 15-day notice, a notice 
and wait, given to the Armed Services Committee.
    And similarly, if you make air strikes with aircraft that 
are out of Iraq, you have to give that same 15-day advance 
notice.
    My question to you is is that something that will allow you 
to fight this war effectively? You have got the provision right 
in front of you there, and it is pretty straightforward.
    Admiral Fallon. I would say that in my experience, a 
decision to deploy a unit or a sub-unit of some organization is 
made certainly with an understanding of our best assessment of 
the readiness of that unit.
    There are times in which we may deploy units that are not 
in the highest mission readiness category with an understanding 
of the risk that may be involved in that mission and the 
assumption of that risk by the commander that receives that 
unit.
    So from my experience----
    Mr. Hunter. What I am talking about, though, is the 15-day 
waiting period, even if you are fully mission-capable and you 
can certify that immediately.
    This language says you have to report to the Committee on 
Armed Services and make that certification two weeks before you 
make the deployment of any unit.
    That means if you have a hostage situation and you have to 
send a Special Operations Command (SOCOM) team in to rescue 
them from out of country, you have to wait two weeks under this 
should this become law.
    My question is assuming all our SOCOM guys are fully 
mission-capable when they go into country, and presumably most 
of our air capability that would come out of a place like 
Incirlik is also fully mission-capable, but can you live with a 
two-week wait in a war against terror, where your targets are 
fleeting and sometimes the American forces are in extremis?
    Do you see what my question is? My question is can you wait 
for two weeks before units go into Iraq?
    Admiral Fallon. As a commander, I would ask for a 
consideration that we not limit the flexibility of our 
commanders in allowing them to use forces that might be 
necessary to meet a situation or a mission which they may be 
asked to undertake.
    So I would opt to allow our commanders to have the 
flexibility of making that decision rather than have some 
dictated requirement in advance.
    Mr. Hunter. Thank you, Mr. Chairman.
    The Chairman. I would tell the admiral that there are three 
waivers in the proposed legislation, Presidential waivers, and 
one of those three waivers is on the language to which the 
gentleman from California, Mr. Hunter, made reference.
    Mr. Hunter. Mr. Chairman, would you yield on that?
    The Chairman. You bet.
    Mr. Hunter. Yes, there is a waiver, but the waiver does not 
go to units which are fully mission-capable, which presumably 
any special operation forces are going to be.
    That waiver exists in subsection D, and it only refers to 
consideration of units that are not assessed as fully mission-
capable.
    So having asked our attorneys to look at this, there is no 
waiver for a special forces team that would be fully mission-
capable, that would be capable of asserting that on the very 
first day. Under the law, they would still have a 15-day 
waiting period.
    Subsection D applies to, and I am quoting, ``a unit that is 
not assessed as fully mission-capable.''
    Admiral Fallon. I would just ask the committee in their 
deliberations to please keep in mind that our commanders would 
like to have the ability to have the flexibility to make 
decisions that would be appropriate to the task which they are 
asked to carry out.
    The Chairman. It is my understanding, Admiral, that the 
waiver does apply, and of course it really boils down to 
interpretation by various lawyers, but I appreciate the 
gentleman bringing the--mentioning the issue.
    Dr. Snyder.
    Well, Admiral, we are very, very appreciative--oh, Mr. 
Sestak? You have a question, sir?
    Mr. Sestak. Admiral, thank you.
    Thanks, Mr. Chairman.
    Admiral, a lot of people talk about is there a Plan B if 
what is happening with the surge or escalation, however you 
want to characterize it, does not achieve the goals the 
President is trying to attain--military security environment 
that is such that politically people would, in his opinion, be 
more willing to compromise and come forward.
    You had said that this is a last great chance opportunity 
for them. Did you mean that as far as militarily with this 
emphasis on what the military could do to help the process--but 
did you also mean that diplomatically?
    And I say this with great respect for having watched what 
you did in the Western Pacific diplomatically with a nation 
such as China.
    And so my question comes down to two areas--one, 
politically, internally, which we talked about, what leverage 
do we actually have to move them along?
    But number two, if you could address it first, is Iran and 
Syria, and particularly Iran, who came to us in 2003 and 
appeared to want to work with us, to where General Eikenberry, 
when he sat at the table here, actually, in answer to a 
question, said, ``Iran appears to be working toward our 
interest in Afghanistan,'' because our interests happened to 
coincide. It doesn't want al Qaeda there.
    And yet there has been recent reports, just recent, that 
now there is arms from Iran there. Have we missed opportunities 
here? Is there an opportunity here?
    Where you had talked about working with regional nations--
you mentioned Syria--is there really a different approach we 
should be taking, not tougher, but not dissimilar to what 
happened in the Western Pacific, so that there really is a Plan 
B?
    Admiral Fallon. Well, a couple things. First, to the latter 
comment on Iran, it seems to me that we ought to be very 
interested in those things which would be helpful in general 
security and stability of the region.
    Whatever has gone on in the past, it seems that in this 
challenge with Iraq that we could use all the help we can get.
    There is a conference upcoming that was agreed by President 
Mubarak to host in Egypt--actually, there are two, but the one 
of interest straightaway is the so-called neighbors conference.
    This is an attempt by those in the region to get people 
together to talk about how they might be helpful to one 
another, particularly as regards Iraq.
    And it seems to me that this is a really good place in 
which we might have constructive dialogue on an item that is of 
very high interest to us.
    And you are aware, of course, that there was an inaugural 
discussion here in recent weeks, and I would look forward to 
the discussion that might ensue in this meeting, particularly 
in the context of what role Iran may play in a helpful venue 
toward Iraq.
    And so I think this is probably a good place to start, and 
we look forward to that.
    Regarding Iraq itself, and the business of how much time 
there is left and the necessity for tough decisions, I believe 
that notwithstanding the phenomenal effort that is being put 
forth by our military personnel and many other entities in the 
interagency and thousands of people that are hard at work 
today, that this is, at the end and the beginning, about the 
willingness of the Iraqi leaders to make those decisions that 
will engender the kind of confidence in the people in that 
country to want to move forward in a manner in which we would 
be happy to see them and really encourage them to do it.
    So we are trying to make sure, without any doubt, that the 
leaders in this country understand that that is really our 
objective, and that we recognize that this is their decision. 
They are going to have to make the choices.
    But if they fail to make choices that will engender that 
kind of confidence, then I don't know how much we could do 
absent those kinds of calls. So they got the message, and now 
it is going to be up to them.
    But we recognize there is an awful lot of help that they 
need, confidence-wise and others, to help make that----
    Mr. Sestak. Could I just make a closing comment, if I 
might?
    The Chairman. Yes.
    Mr. Sestak. Thank you, sir. It is not that I believe many 
are anti-war, so to speak, with Iraq.
    And the issue on time, even just after this recent trip 
with Senator Hagel, comes back as I look at the Army brethren 
and watch that not one unit in America is ready to deploy to 
another contingency.
    It is really pro-security and how we place ourselves--is 
why we keep coming back to how long. And so therefore, the 
comment is if it is having the political leaders willing to do 
something, what it ultimately comes to--what is the leverage?
    And thus far, what I did hear out there from military 
leaders and political was dates, and not being open-ended has 
helped. Thank you, sir.
    The Chairman. Ms. Giffords has another question.
    Ms. Giffords. Thank you, Mr. Chairman.
    I know that in my absence maybe there was a 
misunderstanding about the question that I asked you, Admiral.
    I think it is absolutely critical that now, as the head of 
Central Command--that we know of these 20,000, plus or minus, 
contractors that we have of the security forces what sort of 
legal status they have in terms of security status in Iraq and 
Afghanistan, what legal status they currently operate under, 
and by what process can they be disciplined for misconduct.
    My experience over there was that it was very unclear who 
these people worked for, what they did, and who was in charge 
of them.
    Now, I know there was a comment made in reference to 
tattoos. And I think that is great. If people want to have 
tattoos, that is fine.
    But our United States military--there are some very strict 
guidelines in terms of what your physical appearance can look 
like and should look like, because you represent not just your 
branch of the military but the entire United States of America.
    So my experience was that it was very unclear--no name 
tags, no badges, no indication who these people worked for--and 
I just certainly believe that you need to take real control of 
who these 20,000 people are, where they--who they currently 
report to.
    And I just don't want that to be undermined in terms of a 
comment that was made recently.
    Mr. Hunter. Would the gentlelady yield?
    Ms. Giffords. Yes, sir, I will yield.
    Mr. Hunter. I thank the gentlelady for yielding.
    My comment, and I was the person who commented--in fact, I 
wish you had stayed--was not to the point of the control factor 
of the contractors--and incidentally, the fact that you didn't 
see control doesn't indicate there wasn't any--but your 
comments with respect to thugs, tattoos, et cetera.
    And my point was, which I didn't think you understood, was 
that the vast majority of those contractors at places like 
Blackwater are, in fact, honorably discharged veterans of the 
United States military who are outstanding Americans, SEALs, 
special forces, people who have done an enormously good job for 
our country and are in a second career.
    And they are in a second career as contractors. They have 
security skills. They are disciplined people. And they are good 
people. And they aren't thugs. And I heard the word ``thug'' 
used.
    And my further point was that if you use the idea that a 
person has a tattoo--is somehow an indication that he is a 
disorderly or a bad person--most of the people who are 
contractors who have tattoos are people who acquired them in 
the United States Navy, Army, Marine Corps, Air Force.
    We have had a lot of our contractors who have been killed 
over there. They have given their lives for what they thought 
was a good cause.
    The contractors who were killed and whose bodies were hung 
on the bridge in Fallujah were American contractors, in fact, 
who came from the place that you spoke of somewhat 
disparagingly. That is Blackwater. They were Blackwater 
contractors.
    So that was the point that I made, and I don't think the 
admiral has said that his contractors are out of control.
    Ms. Giffords. Mr. Chairman.
    Mr. Hunter. And I thank the gentlelady for yielding.
    Ms. Giffords. I would like to reclaim my time.
    Ranking Member Hunter, I am sorry if my comments were taken 
out of context. But what I said is that some of these security 
contractors look very unprofessional. And we have to take 
ourselves out of the position and think about what the Iraqi 
people think about seeing Americans over there.
    Some of them, I am sure, were discharged honorably from the 
United States military, but they are currently not under the 
umbrella of the United States military, so they have served our 
country with honor and they may continue to serve our country 
with great honor and distinction.
    But it is important not to take my words out of context. 
Some of these men look unprofessional. And it is important that 
we understand--again, getting away from--the premise of my 
question--of what sort of legal system do they currently 
operate under.
    And in terms of discipline for their misconduct, how do we 
do that here? And does Central Command play an active role?
    The comments that were made in the newspaper just a couple 
of weeks ago by Major Small, a spokesperson for Central 
Command, was, ``This is not a CENTCOM issue. It is for whoever 
is running the contract.''
    So, Mr. Chairman, Ranking Member Hunter, I urge the United 
States military to really take control of these contractors. I 
think it is really important.
    Mr. Hunter. I have some information on that, if the 
gentlelady would yield just briefly.
    Ms. Giffords. Actually, you know what?
    Mr. Hunter. My understanding is that--and I believe we 
asked these questions initially during the initial occupation--
was that because there was a determination--is it under what 
body of law American personnel in Iraq would be governed by.
    And there was initially an agreement with the Iraqi 
government--and you will have to--the staff will have to help 
us on this, because this was some time ago--that the American 
contractors would be under the jurisdiction of American law, if 
your question is what jurisdiction applies.
    Ms. Giffords. Thank you.
    And, Mr. Chairman, I would like to yield the balance of my 
time to Congressman Sestak.
    Mr. Sestak. And if I could, Mr. Chairman, I just wanted to 
comment to your comment.
    I spoke with the colonel who had to go get the remaining 
body parts of the three Blackwater individuals, and he said to 
me--and it gets to Admiral Fallon's point about command and 
control--``If only they had called me, I would have told them 
that that road was not safe, and they would be alive today.''
    Not only for their safety, but for accountability of not 
having a separate military force, Admiral Fallon's point well-
taken by my fellow representative, it is very important to have 
the command and control of this separate entity there.
    And that is what I learned, is we don't have that, 
according to the Marine colonel.
    Thank you for yielding your time.
    The Chairman. Admiral Fallon, in an earlier comment, made 
it clear that they are under the Central Command control.
    Am I correct, Admiral?
    Admiral Fallon. I have now got this article that is 
attributed to a person at Central Command whom I don't know. 
And I will go find out.
    But if there is someone who is contracted to us or 
representing us in any way, shape or form, then I will take 
responsibility and find out what is going on.
    The Chairman. That clarifies that.
    Second, Admiral, I think the questions put by the 
gentlelady and others would fall within the request I made 
earlier regarding contractors, and----
    Admiral Fallon. Got it.
    The Chairman [continuing]. We look forward to an early 
answer to that request of you, knowing full well you don't have 
it at your fingertips today.
    Admiral Fallon. Yes, sir.
    The Chairman. Admiral, we can't thank you enough for your 
past service, your present service, your future service. You 
are a great American.
    We appreciate your taking this very challenging position 
on, and we wish you the very best. Thank you again.
    Admiral Fallon. Thank you, Chairman.
    [Whereupon, at 12:33 p.m., the committee was adjourned.]
     
=======================================================================

                            A P P E N D I X

                             April 18, 2007

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 18, 2007

=======================================================================
     
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================
             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             April 18, 2007

=======================================================================
     
                   QUESTIONS SUBMITTED BY MR. SKELTON

    The Chairman. Can you get us the number of contractors that are in 
Iraq and a basic description of their various missions?
    Admiral Fallon. As of April 2007, there were approximately 129,000 
total personnel working for DoD-funded contractors within Iraq. There 
are approximately 6,000 Private Security Contractors (PSCs) in Iraq. In 
addition to those working for DoD, there are a number of contractors in 
Iraq who work for a variety of other USG agencies including State, 
Justice, USAID, and Interior, to name a few.
    Contractors within the CENTCOM AOR perform a variety of functions 
and services. These include communications support, construction, 
facility maintenance and repair. In some locations, contractors perform 
base operations that include food and sanitation services, base 
security, and other logistical support functions.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MEEHAN
    Mr. Meehan. Please comment on the relationship between CENTCOM, 
General Petraeus and the U.S. Embassy in Baghdad. How is our strategy 
in Iraq coordinated between them? Who is responsible for the 
development of the campaign plan that addresses the political, 
diplomatic, information, military and economic (DIME) plans there?
    Admiral Fallon. The relationship between CENTCOM, MNF-I and the US 
Embassy in Baghdad are founded upon the principles and congressional 
intent expressed in the National Security Act of 1947, as amended, in 
the Department of Defense Reorganization Act of 1958, and the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986. Our 
strategy in Iraq is a mutually coordinated effort. As CENTCOM 
Commander, I establish the military regional strategy for our CENTCOM 
area of responsibility (AOR), and as a major subordinate headquarters, 
MNF-I (GEN Petraeus), establishes and recommends the strategy for Iraq. 
The Iraq Joint Campaign Plan, development, and revisions are 
collaborated efforts between the US Embassy and Multi-National Force-
Iraq. The Joint Campaign Plan addresses the political, diplomatic, 
information, military and economic (DIME) aspects of a collaborated 
campaign. Prior to the Joint Campaign Plan being approved and signed by 
the Ambassador and Commanding General, the plan is briefed to me.
    Mr. Meehan. Could you please detail CENTCOM's role, as 
distinguished from the Multi-National Forces-Iraq (MNF-I), commanded by 
General Petraeus, the Multi-National Corps-Iraq (MNC-I), commanded by 
LTG Odierno, and the Multi-National Security Transition Command-Iraq 
(MNSTC-I), commanded by LTG Dempsey, in ``direct[ing] all U.S. 
Government efforts and coordinat[ing] all international efforts in 
support of organizing, equipping, and training all Iraqi security 
forces,'' as provided in the May 11, 2004 National Presidential 
Security Directive (NSPD-36). For example, a. What role does CENTCOM 
play in the plan to develop an organic logistics capability for the 
ISF? b. What role does CENTCOM play in vetting requests for forces for 
transition teams and the selection of personnel to serve on the 
transition teams? Does CENTCOM receive feedback on the performance or 
training of transition teams? On the progress of the Iraqi Security 
Forces? On the Transition Readiness Assessment (TRAs) reports? If so, 
what does CENTCOM do with the feedback? c. What are typical requests 
for support from CENTCOM headquarters from MNF-I or MNSTC-I relative to 
the Iraqi Security Forces and transition teams? d. How is CENTCOM 
participating in the revision of the MNF-I/U.S. Embassy Baghdad ``Joint 
Campaign Plan?'' How is CENTCOM tracking progress in meeting the 
conditions set forth in the Joint Campaign Plan? Can the Oversight and 
Investigations Subcommittee get a copy of the plan and a briefing on 
the ISF's progress relative to the plan?
    Admiral Fallon. US Central Command (CENTCOM) provides strategic-
level guidance to both MNF-I and MNSTC-I including forming the Iraqi 
Security Force's (ISF) logistics development plan.
    The CDR, MNF-I validates all requirements for transition team 
personnel and sends those requirements to CENTCOM who in turn vets and 
validates the requirements and submits them to the Joint Staff. 
Selection and training of transition team personnel is accomplished by 
the individual services. MNF-I and MNSTC-I submit feedback directly to 
the services and their training centers. USCENTCOM receives periodic 
reports and TRA data from MNF-I that tracks the progress of the ISF. 
The CENTCOM staff monitors and analyzes this information so as to keep 
the CENTCOM commander informed of ISF development. Typical MNF-I and 
MNSTC-I requests for support include requests for forces, strategic 
guidance, and assistance in planning efforts.
    Campaign assessment, development, and revisions are collaborated 
efforts between the US Embassy and Multi-National-Iraq. Prior to the 
Joint Campaign Plan being approved and signed by the Ambassador and 
Commanding General, the plan is briefed to the Commander, US Central 
Command.
    Mr. Meehan. You may be aware, the Subcommittee on Oversight and 
Investigations, which I chair and on which Mr. Akin serves as the 
ranking member, has undertaken an in-depth examination of the planning 
for and progress in the development of the Iraqi Security Forces. I was 
able to lead a congressional delegation in-theater in February and 
obtained valuable insights into both the progress that is being made 
and the challenges the Coalition faces in standing up the ISF. 
Additional follow-up work is needed to assist the subcommittee's 
investigation. The subcommittee staff is having difficulty in arranging 
a follow-on staff delegation trip this month or early next month. 
Preliminary arrangements for travel that was to occur this week have 
been pushed off, we're told, until mid-June, at the earliest, because 
of the surge. We are sensitive to the fact that it can be a challenge 
to accommodate such work during wartime, but we have done our best not 
to request personnel from theater in such a way that would take them 
out of the fight. That is part of the reason that travel to Iraq is 
necessary. I would ask for your support and assistance in seeing that 
the staff delegation is re-scheduled as soon as possible. Can I have 
your commitment to see that that occurs?
    Admiral Fallon. US Central Command (CENTCOM) recognizes the need 
for Congressional travel to the CENTCOM Area of Responsibility (AOR) 
and makes every attempt to accommodate all requests. It should be noted 
that in light of the current operations tempo in Iraq and the increased 
demand on airlift assets, CENTCOM has been operating under restricted 
travel for several months. Due to the number of request for 
Congressional delegation travel, staff delegations are approved on a 
case by case basis by exception and are authorized military air support 
into and out of Iraq on a space available basis.
    Mr. Meehan. Current programs call for the Iraqi Air Force to 
acquire tactical transport and limited ISR (Intelligence, Surveillance, 
and Reconnaissance)-capable assets. What longer-range plans are there 
for the Iraqis to purchase and train on aircraft and systems providing 
the full range of capabilities currently provided by Coalition support?
    Admiral Fallon. [The information referred to is classified and 
retained in the committee files.]
    Mr. Meehan. Are any issues arising with respect to training the 
Iraqi Navy given the Iranian capture of the British?
    Admiral Fallon. No, the Iranian capture of British naval personnel 
earlier this year has not had any effect on the training of the Iraqi 
Navy.
    The Iraqi Navy faces significant challenges in meeting the 
individual and collective training needs for its ambitious acquisition 
program, including development of leadership and technical skills. 
Training efforts include mentorship conducted by the Naval Transition 
Team and active skills training conducted by Coalition Navy, Marine, 
and Coast Guard Forces. Infrastructure development will remain the 
primary effort throughout 2007. Naval planning is maturing and coherent 
across acquisition, training and infrastructure lines of development 
extending to 2010.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. The Horn of Africa assignment for the Guam National 
Guard soldiers is becoming a regular one. Can Guam National Guard 
soldiers and their families expect the Guam Guard to be rotated in and 
out of the Horn of Africa for the foreseeable future?
    Or can the Guam Guard anticipate a different mission?
    Admiral Fallon. Although the Horn of Africa will continue to be a 
requirement within the Central Command AOR, we do not make 
recommendations as to which units fill those requests.
    USCENTCOM does not know the future force requests that the Guam 
Guard will be required to fill.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. Have the pledged Iraqi forces been placed in the city? 
What is the status of Iraqi forces?
    Admiral Fallon. Since the end of 2006, the Iraqi Army has provided 
reinforcement units to support operations in Baghdad. The original 
requirement has been adjusted several times resulting in the current 
fixed requirement of 3 Brigades and 9 Battalion.
    Each unit deployment in Baghdad is scheduled for a period of 3 
months (90 days), not including a period of three weeks of unit 
preparation at the unit's home location and additional collective 
training at the Besmaya Range Complex east of Baghdad. Two units have 
volunteered to extend their tours in Baghdad.
    The MOD is already planning the next series of rotations which will 
occur in July, August and September. To reduce the turbulence caused by 
these constant unit rotations, the Ministry of Defense plans to create 
six dedicated battalions for use in Baghdad (in addition to those units 
and formations already based in Baghdad) before the end of the year. 
Once complete, this initiative will reduce deployment, training, and 
sustainment problems currently felt by the rotating units and donor 
formations. Furthermore, these units are likely to have improved 
manning numbers as they are based in Baghdad, their home territory.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. Can you tell us how many Peruvians are employed by us 
there?
    Admiral Fallon. The mix of contractor personnel in Iraq is 
approximately: 16% US; 33% multi-national; and, 51% Iraqi. We do not 
maintain statistical data on the country of origin of multi-national 
contractors and sub-contractors.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS
    Ms. Giffords. There are currently about 20,000 security contractors 
serving in Iraq. And I am curious, since you took command of Central 
Command, what explanation have you received of the legal status of 
security contractors working in both Iraq and Afghanistan?
    What legal system do they currently operate under? And what is the 
process by which they can be disciplined for misconduct?
    Admiral Fallon. Contractors are required to comply with USCENTCOM 
Rules for the Use of Force (RUF) and are not authorized to participate 
in offensive combat operations. However, private security contractors 
are authorized to use deadly force, when necessary, in self defense; in 
the defense of facilities or personnel as specified in their contract; 
to prevent life-threatening acts directed against civilians; and, in 
defense of Coalition-designated property as specified in their 
contract.
    Private security contractor (PSC) personnel must be properly 
licensed to carry arms in accordance with host nation law and must 
receive USCENTCOM/Coalition Forces approval of their operations. PSC 
personnel must comply with US and host nation laws; treaties and 
international agreements; US regulations, directives, instructions, and 
policies; and, orders, standard operating procedures, and command 
policies.
    Additionally, PSC activities are governed by an MNF-I FRAGO (05-
231) which establishes procedures for private security contractors to 
report all escalation of force (EOF) incidents or other weapons firing 
incidents. If a firing incident occurs, an initial report must be sent 
to the Reconstruction Operations Center (ROC) as soon as practical.
    Issues of questionable conduct are governed by a variety of 
authorities depending on the nature of alleged offense. These sources 
of authority include: Title 18, U.S. Code; the Uniformed Code of 
Military Justice (UCMJ); host nation law; command/activity directives; 
and employer directives and policies.
    Companies within the CENTCOM AOR which are under contract with DoD 
are currently held accountable through the following organizations: US 
Army Corps of Engineers for military construction (MILCON); Joint 
Contracting Command Iraq/Afghanistan (JCCI/A) for theater support 
contracts such as transportation, vehicle maintenance, water, and waste 
disposal; Defense Logistics Agency (DLA) for multiple classes of 
supply; Air Force Center of Environmental Excellence (AFCEE) for 
reconstruction; Defense Contract Management Agency (DCMA) for Logistics 
Civil Augmentation Program (LOGCAP); and, Defense Energy Supply Center 
(DESC) for fuel.
    Private security contractor personnel whose conduct would 
constitute a felony under U.S. law are subject to prosecution by the 
Department of Justice under the Military Extraterritorial Jurisdiction 
Act (MEJA) of 2000 (18 U.S.C. 3621). A recent legislative change also 
allows for the use of the UCMJ in prosecuting civilians who serve with, 
or ``accompany'', the U.S. Armed Forces.

                                  <all>

</pre></body></html>
